<html>
<title> - AVIATION SAFETY: THE RELATIONSHIP BETWEEN NETWORK AIRLINES AND REGIONAL AIRLINES</title>
<body><pre>[Senate Hearing 111-343]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-343
 
AVIATION SAFETY: THE RELATIONSHIP BETWEEN NETWORK AIRLINES AND REGIONAL 
                                AIRLINES

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 6, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                  U.S. GOVERNMENT PRINTING OFFICE
53-060                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BARBARA BOXER, California            JOHN THUNE, South Dakota
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
MARK PRYOR, Arkansas                 SAM BROWNBACK, Kansas
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida
AMY KLOBUCHAR, Minnesota             MIKE JOHANNS, Nebraska
MARK WARNER, Virginia
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 6, 2009...................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Hutchison...................................     2
    Prepared statement...........................................     3
Statement of Senator Begich......................................    28
Statement of Senator Johanns.....................................    38
Statement of Senator Isakson.....................................    42
Statement of Senator Thune.......................................    44

                               Witnesses

Philip H. Trenary, President and Chief Executive Officer, 
  Pinnacle Airlines Corp.........................................     4
    Prepared statement...........................................     6
Peter M. Bowler, President and CEO, American Eagle Airlines, Inc.    10
    Prepared statement...........................................    12
Captain Don Gunther, Vice President; Safety, Continental 
  Airlines, Inc..................................................    15
    Prepared statement...........................................    16
Captain Stephen M. Dickson, Senior Vice President, Flight 
  Operations, Delta Air Lines....................................    19
    Prepared statement...........................................    21

                                Appendix

Response to written questions submitted by Hon. Byron L. Dorgan 
  to:
    Captain Stephen M. Dickson...................................    65
    Captain Don Gunther..........................................    67


                   AVIATION SAFETY: THE RELATIONSHIP
                      BETWEEN NETWORK AIRLINES AND
                           REGIONAL AIRLINES

                              ----------                              


                        THURSDAY, AUGUST 6, 2009

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We're going to call this hearing to order. 
Other colleagues will be joining us, but we want to begin on 
time this morning.
    I want to thank all of you for joining us today to talk 
about the issue of aviation safety. This is the third hearing 
we will have held on aviation safety. And let me begin, at the 
start of this hearing, saying something that is, I think, 
pretty self-evident, that we continue to have a remarkably safe 
air travel system. It's not my intention, by having hearings on 
the subject of air safety, to cause people to wonder about 
whether, when they board a commercial flight in this country, 
they need to be worried. So----
    We operate aircraft all across the United States--
commercial, general aviation--every day. Commercial aviation, 
the airlines, I think, provide great service to our country. 
But, we do have a requirement, in my judgment, to examine 
whether we drift, from time to time, to--between standards and 
from standards. And, as you know, back in the 1990s, we had an 
FAA requirement of one safety standard. We now have migrated to 
a different kind of system. We haven't gone away from a hub and 
spoke system, necessarily, although there are more carriers 
flying between city pairs, but the migration has been to 
regional carriers that, in many cases, are employed by, and 
contracted by, the major carriers. They fly airplanes with the 
same markings. The American public don't know, necessarily, 
whether their getting on a trunk carrier or a regional carrier 
when they board a plane; they know they are boarding a plane 
with the same markings. And so, the question is, Is there one 
standard being enforced by the FAA?--and with respect to the 
issues that we wanted to explore today with both the major 
carriers as well as the regional carriers, is, What is the 
responsibility of the major carrier to the regional carrier? 
And what's the responsibility of the regional carrier to the 
major carrier, on pilot training and crew rest and a whole 
range of issues? How does one deal with the issue of fatigue? 
What kind of connection or responsibility exists between a 
major carrier and another company that actually carries its 
brand and its logo on the plane that it flies?
    The FAA has moved forward to bring together carriers to 
identify immediate steps that can be taken to strengthen 
aviation safety. And I appreciate that. In addition, our FAA 
reauthorization bill has a number of safety improvements, and I 
look forward to working to pass that through the full Congress 
and having it signed by the President. We have a 
responsibility, I believe, to get that done.
    The hearings that we have held on air safety, as you know, 
were spurred by the tragic crash, in February, of Continental 
connection flight 3407 in Buffalo, New York. This is not a 
hearing about that crash. The National Transportation Safety 
Board has been doing an extensive investigation there. But, the 
public disclosure of a number of factors that existed with 
respect to that flight have caused this committee, and others, 
to raise questions about the one level of safety.
    We will not be reexamining all of those issues with the 
Colgan tragedy; the NTSB is doing their job. But, what we want 
to do is to understand, What are the industry best practices, 
what are the requirements and standards that we, in the 
traveling public, should expect? The migration of our system, 
to about half of the flights in our country being flights on 
regional carriers, is a very different situation that existed a 
decade or two decades ago, and so, I think it requires us to be 
looking at, What are the standards for training and procedures, 
and what is the relationship between the major carriers and the 
regionals?
    I'd like, if possible, to entertain very short opening 
statements today, and I'll--and then we'd like to get to the 
four witnesses. If we can do 2-minute opening statements, I'd 
appreciate it.
    Let me call on Senator Hutchison, who's the Ranking Member 
of the full Committee.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman. I won't 
give my full remarks; I will put them in the record.
    But, I think you have stated it well. We really are trying 
to look at the code sharing and, when there is a contract with 
another private owner for an air carrier, we want to know 
exactly what the safety precautions are, what the rules are, 
and, in our oversight capacity, just make sure that we're doing 
enough. It is an FAA responsibility. I think they have 
fulfilled that responsibility, in the main, through the years. 
But, I think we have looked at the differences between air 
carriers and commuters over the years, and we have made changes 
that have improved safety, and those are in place. So, I think 
it doesn't hurt to always err on the side of caution and make 
sure that we're doing everything possible in the safety area, 
which is the plane and it's also the training and other pilot 
issues.
    So, I thank you for continuing these hearings. It's a very 
important subject. And having been Vice Chairman of the 
National Transportation Safety Board myself, I am so familiar 
with these issues and the differences and what we've done, and 
maybe we should be looking for other things that we should do 
if we decide that there is some area that needs to be 
addressed.
    So, thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Senator Dorgan, thank you for holding this series of hearings on 
regional airline safety. I believe we put together a sound safety 
proposal in our recent FAA Reauthorization Bill based on the 
information provided in our previous two hearings on this topic. I look 
forward to working with you as the process continues to move forward.
    Before I begin, I would like to take a moment and welcome and 
recognize Peter Bowler, President and Chief Executive Officer at 
American Eagle Airlines and Captain Don Gunther, Vice President of 
Safety at Continental Airlines. Both airlines are long-time Texas 
institutions and leaders in the field of aviation safety. I appreciate 
both of you taking the time to testify.
    Despite the remarkable safety record of the U.S. aviation industry, 
the tragic accident of Colgan Flight 3407 reminds us we must remain 
vigilant and aggressively work to improve our aviation system, 
especially in hard to quantify areas such as fatigue and professional 
responsibility.
    Today, we will specifically review the contractual code share 
agreements between network and regional airlines and the safety 
responsibilities involved with those arrangements. While reviewing this 
topic is timely, it is important we remember that it is the FAA's sole 
responsibility to oversee and regulate safety in our national aviation 
system.
    Additionally, it is paramount that individual companies and 
carriers, regardless of code share arrangements, maintain a robust 
safety program that will provide the American public with the 
confidence that all our air carriers are safe and that the phrase `one 
level of safety' really equates to one level of safety in an 
operational environment.
    The message should be clear, it doesn't matter how small or whom 
you code share, it is the operator's responsibility to maintain a 
robust and effective safety management system at their airline. While 
best practices can and should be garnered from the network carriers 
through mentoring and other sharing programs--no company should rely on 
another to supplement what should be the fundamental operating 
principle at each and every carrier, which is the utmost level of 
safety.

    Senator Dorgan. Senator Hutchison, thank you very much.
    Senator Begich?
    Senator Begich. Mr. Chairman, thank you very much. And I 
appreciate the hearing.
    I'm going to actually pass and go right into the testimony.
    Thank you very much.
    Senator Dorgan. All right.
    Senator Johanns?
    Senator Johanns. I'll do likewise.
    Senator Dorgan. Thank you very much.
    We have four witnesses today. Captain Stephen Dickson is 
the Senior Vice President of Flight Operation in Delta Air 
Lines; Captain Don Gunther, Vice President for Safety with 
Continental Airlines; Mr. Peter Bowler, President and Chief 
Executive Officer of American Eagle Airlines; and Mr. Philip 
Trenary, President and Chief Executive Officer of Pinnacle 
Airlines.
    Let us begin with Mr. Trenary. Would you proceed? And we'll 
go across to the left.

 STATEMENT OF PHILIP H. TRENARY, PRESIDENT AND CHIEF EXECUTIVE 
                OFFICER, PINNACLE AIRLINES CORP.

    Mr. Trenary. Thank you, Mr. Chairman.
    Senator Dorgan. And let me say, before you begin, we will 
include your entire statement as a part of the record, and we 
will encourage you to summarize.
    Mr. Trenary, thank you for being here.
    Mr. Trenary. Thank you, Mr. Chairman and Members of the 
Subcommittee. My name is Phil Trenary. I'm the President and 
CEO of Pinnacle Airlines Corp., which is the parent company for 
Pinnacle Airlines and Colgan Air.
    Before I offer my brief remarks, I'd again like to extend 
our deepest and heartfelt sympathy to all those who were 
touched by flight 3407. I know we have some of the family 
members here today. My prayers and thoughts continue to be with 
you daily.
    I'd also like to thank the Subcommittee members for your 
work in aviation safety. I share your passion. I started in 
this business in 1977, as a flight instructor at Oklahoma 
State, and worked my way up to an airline transport-rated 
pilot, flying turbine equipment in domestic and international 
operations. The past 25 years, I've been a regional airline 
CEO; the past 12 years, at Pinnacle Airlines.
    As the CEO, I recognize and accept that the responsibility 
for safety starts with me, and I can assure you that our 5,000 
employees are dedicated to ensuring we safely transport the 13 
million passengers who fly our airlines annually. Today, we 
offer about a thousand flights daily to 152 cities and towns 
across our Nation. We are very aware of our responsibility to 
our customers, our mainline partners, and our own people to 
maintain the highest level of safety. Our number-one guiding 
principle is: never compromise safety. At Pinnacle Airline 
several years ago, we were evaluating our performance, and, 
while we were very proud that we led the Nation in operating 
performance, we still asked the question, Are we the leader in 
safety?
    While we met or exceeded all safety standards and all 
regulatory procedures, we felt we were not doing enough. At 
that point, we made the decision to be the leader in safety, 
just as we had in operations. We voluntarily started 
implementing the recommended programs--ASAP, FOQA, IAP, LOSA, 
now SMS. I might add that the LOSA program that we have 
implemented has all the attributes of the University of Texas 
protocol, FAA, and ICAO. In addition to that, not only do we 
have observers in the cockpit and the cabin, but also in the 
dispatch center during the observed flights.
    We continuously work with our mainline partners to ensure 
we maintain the highest level of safety and cooperation with 
them. Approximately 2 years ago, we acquired Colgan Airlines. 
This is a wonderful organization, with very caring people doing 
a great job. We immediately started making the same investment 
in Colgan as we did in Pinnacle to implement these programs.
    Our pilots at both carriers are very experienced. Our 
average captain at Pinnacle has over 6,900 hours of flight 
time; the average captain at Colgan, over 5,300. Our average 
first officer at Pinnacle has over 2,800 hours, and at Colgan, 
over 2,000 hours. I believe that our pilots are among the best 
in the industry, regional or major. I have total confidence in 
their ability, training, and experience.
    There has been a lot of discussion about compensation at 
the regionals. And at Pinnacle and Colgan, we have a 
philosophy, for all of our people, to target the average pay 
scales of the industry. We work with our pilot groups on the 
collective bargaining agreement and, over the years, have 
targeted the average of the industry.
    There has been significant progress. When I joined 
Pinnacle, 12 years ago, the average salary for a captain was 
approximately $36,000. Today that average salary is over 
$64,000. The first officers have made some progress, but not 
nearly as much; they are still in the low $20,000 range. I'm 
pleased to announce that we have several of our pilots here 
representing ALPA, including our Chairman. We worked together, 
over a long time and agreed on a tentative agreement for new 
contract, only 2 days ago, that will result in significant 
benefits for all of our people. We're doing the same thing at 
Colgan.
    It's important to remember, and I hope the members of the 
Committee can understand, if you're not a pilot and haven't 
been a professional pilot, it is a great job. There's nothing 
like it. It's one of the most fulfilling jobs anyone can have--
the freedom, the options, the ability to work with people who 
share the same passion. Simply stated, it's a career I would 
recommend to anyone as long as they have the passion for the 
business.
    We do work with our pilots in scheduling flights. The 
flights are scheduled to allow ample time for rest. From a 
pilot utilization standpoint, the average pilot at Colgan flies 
approximately 53 hours; at Pinnacle, it's 63 hours. Average 
days off at Pinnacle are 16 days; average days off at Colgan 
are 14 days.
    We do have a fatigue policy at both carriers. If a pilot is 
fatigued, for any reason, all they have to do is say so, and 
they're excused from duty. We have reserves available. The 
night of 3407--and I know we're not talking about that--but we 
did have 11 reserve pilots available, 2 in the ready room that 
were good to go. I believe our crews are professionals and take 
their job very seriously, and we expect them to report fit and 
ready to fly every day.
    In closing, I'd like to personally thank the Subcommittee 
and the flying public and reassure the Subcommittee and the 
flying public that we will continue to make safety our top 
priority and do whatever it takes to maintain a leadership 
position in aviation safety. I would like to thank you for this 
opportunity to testify today. I look forward to working with 
you on these important initiatives and welcome any questions 
you have.
    Thank you.
    [The prepared statement of Mr. Trenary follows:]

          Prepared Statement of Philip H. Trenary, President 
          and Chief Executive Officer, Pinnacle Airlines Corp.

    Chairman Dorgan, Ranking Member DeMint, and Members of the 
Subcommittee:
    My name is Phil Trenary and I am the President and Chief Executive 
Officer of Pinnacle Airlines Corp., which is the parent of both 
Pinnacle Airlines, Inc. and Colgan Air, Inc.
    I would like to again express personally, and, on behalf of our 
entire family of employees, our deepest and most heartfelt sympathy to 
everyone who has been touched by the tragic loss of Flight 3407, 
especially those who lost loved ones. While recognizing that words 
alone are faint consolation, we share in the grief suffered by their 
relatives and friends. My thoughts and prayers are, and will continue 
to be, with them.
    I would like to thank the Subcommittee for affording us this 
opportunity to share our thoughts about very important matters of 
aviation safety. We commend the hard work this Subcommittee has 
dedicated into examining these issues. The airline industry is 
extraordinarily safe because the government, airlines, our employees, 
labor and aviation experts work together cooperatively. We fully 
support and welcome this Subcommittee's commitment to aviation Safety.
    I am extremely passionate about our industry and have dedicated my 
career to achieving continuous improvement in aviation safety and air 
transportation, primarily to areas of our Nation that have no other 
access to the National Airspace System. I began my career as a flight 
instructor at Oklahoma State University and worked my way up to a 
professional pilot holding an Airline Transport Rating flying turboprop 
and jet aircraft in domestic and international operations. I have been 
a regional airline CEO for the past 25 years, including Pinnacle 
Airlines since 1997.
    Mr. Chairman and members of the Subcommittee, at Pinnacle Airlines 
and Colgan Air, Safety starts at the top of the Company--with me. And 
it is my responsibility to ensure that the leadership of our company 
promotes Safety throughout our organization in every action and in 
every communication to our employees. Safety is our number one Guiding 
Principle. It motivates everything we do. No accident is acceptable, 
period.
    Our company is committed each and every day to making sure our 
flight crews and airplanes are as safe as humanly possible. In an 
industry where we all constantly search for best practices among our 
peers, Safety is the best practice of them all. Safety is good 
business. At our airlines, Safety is the foundation upon which 
everything else depends. Without a strong Safety culture, an airline 
will not survive. Our goal is to ensure that no airplane leaves the 
gate unless every Safety precaution has been taken.
    Together, Pinnacle Airlines and Colgan Air employ almost 5,000 
professionals, and the message of Safety is always uppermost in their 
minds. These fine men and women provide Safe airline transportation to 
over 13 million passengers annually to 134 cities and towns across 
North America.
    I shoulder my responsibility with the utmost gravity, and I will 
not tolerate any less commitment from any of my staff.
    I would now like to emphasize several key points that reflect this 
unwavering focus on Safety.

  <bullet> Our commercial relationship to mainline carriers begins with 
        a deep commitment to Safety.

    Pinnacle Airlines and Colgan Air have code-sharing relationships 
with our mainline business partners. We provide the crew and the 
aircraft, while our partners set flight schedules, fares and customer-
service standards. These arrangements allow carriers to serve markets 
that otherwise would have no scheduled airline service at all. Pinnacle 
Airlines operates a modern fleet of regional jet aircraft and flies 
over 740 Delta Connection flights daily to 120 airports. It flies out 
of four hubs: Memphis, Detroit, Atlanta, and Minneapolis-St. Paul. 
Colgan Air operates state-of-the art turboprop airliners on over 350 
flights per day. It is affiliated with three airlines and operates as 
Continental Connection, United Express and U.S. Airways Express.
    A passenger purchasing a ticket on a mainline carrier's regional 
partner has every reason to expect the same high levels of service they 
would receive on the mainline carrier. Even more important, they have 
every right to expect that the mainline carrier and the regional 
partner have the same level of Safety.
    And they do. A common misperception exists that regional airlines 
and mainline carriers are subject to different Safety standards. This 
is simply not true. All U.S. commercial air carriers are subject to the 
same standards and requirements, and receive exactly the same level of 
Safety oversight. Since 1995, the FAA has imposed one level of Safety 
on the entire air carrier industry. Thus, Pinnacle Airlines and Colgan 
Air are independently required to meet exactly the same Safety 
standards as our mainline partners.
    This is not to say that our partners do not take an interest in the 
Safety of our operations, because they do. Pinnacle Airlines and Colgan 
Air regularly communicate with our partners to discuss operating 
performance, safety programs and initiatives. All of our agreements 
provide extensive rights to our partners to inspect and review all 
aspects of our operations. The agreements with our partners also 
memorialize the requirement that we must comply with all Federal 
aviation regulations and operating rules promulgated by the FAA, the 
DOT and any other regulatory authority in the United States.
    But aside from regulatory requirements, our partners take an 
intense interest in the Safety of our operations. The operating 
departments of Pinnacle Airlines and Colgan Air regularly communicate 
with their counterparts on a formal, scheduled basis, as well as 
engaging frequently on an informal basis. We share best practices. We 
ask for advice. We report our operational and Safety metrics regularly, 
and we use the expertise of our partners when developing our continuous 
program of Safety enhancement. Pinnacle Airlines was a leader in 
forming the ``Safety Alliance'' to share data with its code-share 
partners, and is implementing the same philosophy with Colgan Air.
    In addition to continuous scrutiny by the FAA and our business 
partners, Pinnacle Airlines and Colgan Air regularly undergo Safety 
audits conducted by third parties as well. The most rigorous industry 
safety audit is performed every 2 years by the International Air 
Transport Association, which examines almost 2,400 items for compliance 
and documentation. Both of our airlines have passed this test, and in 
fact, Colgan Air completed its biennial audit just last week with a 
98.8 percent conformance to IATA standard practices.

  <bullet> I want to underscore that Safety is our top priority and a 
        continuous process.

    Several years ago Pinnacle Airlines committed to taking a 
leadership role in airline Safety. We were among the first to adopt a 
wide range of Safety programs and today we are one of only a few 
airlines, regional and major, to have adopted the full suite of 
voluntary Safety initiatives recommended by the FAA and NTSB. When we 
purchased Colgan Air, we made the same commitment and Colgan Air has 
already adopted many of the same programs. I have committed to our 
Customers, our mainline partners and to members of this Subcommittee 
that Colgan Air will be in the same position of leadership within the 
next few months. We implemented these voluntary Safety programs in both 
companies well before any calls for such programs to be mandatory in 
the industry, and we have regularly exceeded regulatory requirements in 
Safety initiatives.
    These initiatives include:

  <bullet> The Aviation Safety Action Program (ASAP). ASAP enhances 
        safety by encouraging the voluntary reporting of regulatory 
        non-conformance by our employees. The program is non-punitive 
        and results in our Operations and Safety departments being able 
        to gather information on potential Safety issues that we might 
        not have known about were it not for the ASAP program. With 
        this information, we have the ability to spot trends that could 
        lead to Safety lapses. As more airlines begin using ASAP, 
        sharing of a broader range of data will benefit us even more. 
        Pinnacle Airlines and Colgan Air have expanded this program to 
        include our Flight Attendants, Mechanics and Dispatchers.

  <bullet> Flight Operations Quality Assurance (FOQA). This is a 
        partnership among the airlines, the FAA and pilots. It collects 
        data on what an aircraft did during a flight to identify 
        potential safety issues and correct them before any Safety-
        related events take place.

  <bullet> Line Operations Safety Audit (LOSA). This program uses 
        highly-trained observers riding in cockpit jump seats to 
        observe and evaluate crew performance. The observers record how 
        flight crews manage various situations they encounter to 
        maintain Safety. Pinnacle Airlines was the first regional 
        airline to perform LOSA under FAA, University of Texas and ICAO 
        standards.

  <bullet> Internal Evaluation Program (IEP). This provides continuous 
        oversight of the airline's internal procedures and policies for 
        effectiveness and compliance. The focus is on evaluating 
        processes in order to anticipate and address potential problem 
        areas before compliance or Safety issues arise.

    The combination of ASAP, FOQA, LOSA, and IEP provides the 
cornerstone for our Safety program and will be incorporated into our 
overall Safety Management System (SMS). Pinnacle Airlines is in phase 
one of the SMS process with the next meeting with FAA and its 
consultant set in September. A three-party agreement (Airline, FAA, and 
Labor) is crucial for its success.
    All Part 121 airlines have at least one or two of these programs in 
place, but it is not common to have all four. At Pinnacle Airlines and 
Colgan Air, our goal is to prevent accidents and our culture does not 
tolerate compromising Safety for economic reasons.

  <bullet> Pinnacle Airlines and Colgan Air have a philosophy of 
        continuous improvement.

    Pinnacle Airlines has long maintained a high level, systematic 
approach to Safety, and with Pinnacle Airline Corp.'s acquisition of 
Colgan Air in 2007, this practice has been instilled at Colgan Air as 
well. New initiatives at Colgan Air include:

  <bullet> Creating a remedial training and pilot monitoring program 
        for pilots who have demonstrated difficulty during any phase of 
        training or online evaluation.

  <bullet> Increasing minimum flight experience requirements for new 
        pilots and Captain upgrade candidates.

  <bullet> Developing more robust fatigue guidance, including fatigue 
        recognition and self-discipline for personal rest plans.

  <bullet> Instituting stick pusher demonstrations in a flight 
        simulator, despite the fact that flight simulator training on 
        this issue is not required by the FAA and is not standard in 
        the airline industry.

  <bullet> Enhancing recordkeeping procedures by requiring retention of 
        paper copies of training and checking failures as a backup to 
        our electronic records.

  <bullet> Implementing a new automated safety reporting process using 
        a web-based database and automatic alerts to designated 
        Directors and Managers.

  <bullet> Increasing Safety Department observations of crew bases, 
        outstations and jump seat observations.

  <bullet> Evaluating safety reporting systems, including potential use 
        of new technology such as text messaging for instant reporting 
        on issues from the field.

    For both Pinnacle Airlines and Colgan Air, the drive for constant 
improvement never ceases, and the list of enhancements to our Safety 
programs will continue to grow.

  <bullet> Our pilots are carefully screened and highly trained.

    Pinnacle Airlines and Colgan Air pilots meet the same high, 
federally-mandated standards as pilots at major air carriers and 
undergo a rigorous, multi-tiered evaluation process before they are 
hired. About two-thirds of those who are initially contacted for an 
interview are not offered a job. The minimum new hire experience 
requirement at each airline exceeds FAA requirements.
    Colgan Air pilots undergo a thorough evaluation process before they 
are accepted into a training program, including testing by a certified 
check airman in a full-motion simulator, a step that is not widely-used 
in our industry as a component of the hiring process. In order to 
become a pilot with our airlines, training candidates must pass all 
ground training, simulator training, and checkrides, as well as 
background checks in accordance with the PRIA (Pilot Records 
Improvement Act). Limitations in the available information attainable 
through the current PRIA program have in the past made it difficult for 
airlines to review full aviation histories on applicants, and we hope 
that improvements suggested by this Subcommittee will include an 
expansion of access to prospective pilot records. Until such time as 
the PRIA program is expanded, Pinnacle Airlines and Colgan Air require 
all new applicants to bring all training records with them for their 
interview and agree to have their records verified through the Freedom 
of Information Act.
    Pilots flying for Pinnacle Airlines and Colgan Air undergo thorough 
training programs which are fully approved by the FAA and normally 
exceed minimum requirements. For example, both Pinnacle Airlines and 
Colgan Air provide enhanced stall and upset recovery training. We also 
provide expanded training curriculums that include enhanced training in 
maneuvering, handling emergencies and mountainous terrain operations. 
We have initiatives in place to provide mentoring of new hires as well 
as crew-pairing to match experienced pilots with less-experienced ones. 
Our training uses state-of the-art equipment such as the full-motion 
Level D simulators, flight management system trainers and ground flight 
simulators.

  <bullet> Compensation of our pilots is in line with industry 
        standards.

    Our Captains at Pinnacle Airlines have, on average, over 6,900 
hours of flight time while our Captains at Colgan Air average over 
5,300 hours of flight time. Every Captain has an Airline Transport 
Pilot (ATP) rating, which is the highest level of pilot certification 
available. All pilots are ``type rated'' on the specific aircraft they 
fly, and all ratings are issued by the FAA.
    When I arrived at Pinnacle Airlines 12 years ago, our average 
Captain salary was approximately $36,000. Today, at both Pinnacle 
Airlines and Colgan Air, our Captains earn an average of over $64,000 
per year, and our First Officers earn an average of over $24,000 per 
year plus per diem allowances.\1\ These average salaries, as well as 
starting salaries, are consistent with the regional airline sector. 
While starting base salaries for co-pilots may seem low, they must be 
viewed in the context of many other professions where higher salaries 
are achieved through progressive levels of responsibility. Also, our 
pilots' wages are subject to the collective bargaining process and are 
negotiated with our pilot groups.
---------------------------------------------------------------------------
    \1\ 2008 data.

  <bullet> I want the Subcommittee to know that our policies require 
---------------------------------------------------------------------------
        rested and fit flight crews.

    Pinnacle Airlines and Colgan Air carefully follow the duty and rest 
time regulations of the FAA. An automated crew scheduling system tracks 
duty time and ensures compliance with duty limitations and rest 
requirements in compliance with FAA regulations.
    Crew schedules are developed to provide ample rest between duty 
days and periodic extended rest periods. For example, after a three or 
four consecutive day duty period, a pilot may have 4 or 5 days off. 
Such schedules are desirable for pilots in order to achieve those 
consecutive days of rest, and airlines want their pilots to have those 
days off to be ready for their next assignment.
    Monthly schedules are determined well in advance of the beginning 
of each month, which helps pilots be ready for their next assignment. 
Due to delays from weather or air traffic control or other 
irregularities beyond the airline's control, duty days do occasionally 
extend beyond the scheduled pairing times. Although 16-hour duty days 
are legal under FAA regulations, they are never assigned by Pinnacle 
Airlines or Colgan Air.
    Our pilots are professionals and know the importance of proper 
rest. However, if a pilot does experience fatigue, the pilot has the 
ability to remove himself or herself from duty without facing punitive 
action from the airline. Simply stated, our fatigue policy is this: If 
you are fatigued, you do not fly. A pilot declaring fatigue will be 
excused from duty, and is asked to provide a report of the fatigue 
event which will only go to the Safety Department. The Safety 
Department in turn tracks the reports of fatigue for trend analysis in 
the development of our Fatigue Risk Management program. No pilot is 
punished in any way for declaring that he or she is too fatigued to 
fly.

  <bullet> Finally, let me emphasize that Pinnacle Airlines and Colgan 
        Air have appropriate commuting policies.

    Throughout the entire airline industry, many pilots and flight 
attendants choose to live in communities other than where they are 
based. This is not unique to the regional airlines. The ability to live 
virtually anywhere one desires has long been an attraction for the 
airline profession, and crewmembers who elect to do so are free to live 
wherever they wish, provided they comply with all the requirements of 
their job. We do not, nor does any other airline in our country, 
regulate where any employee may choose to live. We do, however, expect 
our pilots, flight attendants, and all of our employees to present 
themselves fit for duty, regardless of where they reside. Commuting 
crewmembers have various options available to them for residence while 
at their base, including shared apartments, and we expect they will 
make suitable arrangements to ensure they always have proper rest 
before reporting for duty. Often these shared accommodations are 
minimal because crewmembers will only spend a few nights each month 
residing there, while the bulk of their duty days allow overnight stays 
away from the base in a company-paid hotel room. Commuting crewmembers 
will share residences for the time they are on duty, then return to 
their homes for their multiple days off. This practice is common for 
pilots and flights attendants at all carriers and at all levels of 
compensation.
    We realize that commuting pilots sometimes encounter difficulties 
getting to work in time for their rest and their assignment. Therefore, 
we offer these pilots an option to call their airline in advance when 
they know they will not be able to report on time. This commuting 
policy aids the airline by ensuring it has ample time to reassign a 
flight to a reserve pilot, and also aids the pilot in knowing that he 
or she can notify the company of a missed assignment without facing any 
punitive action. Pinnacle Airlines and Colgan Air hire professional 
pilots who have an obligation to continuously maintain the exacting 
standards of their profession. We expect that these highly-trained men 
and women will use their rest periods wisely, prepare themselves for 
their flight assignments accordingly, and advise us if they are unable 
to perform their duties reliably.
    There is no substitute for an airline's total commitment to Safety 
or the dedication of all crewmembers in the air and on the ground to 
upholding the highest professional standards at all times.
    In closing, I want to assure this Subcommittee and the flying 
public that Pinnacle Airlines and Colgan Air will continue to make 
safety the highest priority and will aggressively seek to identify ways 
in which we can improve our operations and ensure that we operate the 
safest possible airlines. Again, I accept the responsibility for the 
Safety of all Pinnacle Airlines and Colgan Air customers and am fully 
committed to ensuring that our Airlines are recognized as leaders in 
airline Safety.
    Thank you for the opportunity to testify today and for continuing 
the dialogue on these critical issues. I welcome any questions you may 
have.

    Senator Dorgan. Mr. Trenary, thank you very much. Am I 
pronouncing your name correctly?
    Mr. Trenary. Yes sir.
    Senator Dorgan. Thank you very much for your testimony. We 
appreciate your being here today.
    Mr. Bowler, is President and Chief Executive Officer of 
American Eagle Airlines.
    And, Mr. Bowler, thank you for being with us. You may 
proceed.

       STATEMENT OF PETER M. BOWLER, PRESIDENT AND CEO, 
                 AMERICAN EAGLE AIRLINES, INC.

    Mr. Bowler. Chairman Dorgan, Members of the Subcommittee, 
my name is Peter Bowler, and I am the President and Chief 
Executive Officer of American Eagle Airlines, based in Fort 
Worth, Texas. I am responsible for American Eagle and Executive 
Airlines, two regional airlines that constitute the vast 
majority of the American Airlines regional network.
    As a follow-up to Mr. Trenary's comments, let me also state 
that I and my colleagues at American Eagle and American 
Airlines offer our sympathies to the families and the loved 
ones of those lost on flight 3407.
    American Airlines, American Eagle Airlines, and Executive 
Airlines are all wholly owned by AMR Corporation. Every day, 
12,000 of my highly trained and experienced American Eagle and 
Executive colleagues operate approximately 1,500 flights to 
nearly 160 cities across the United States, Canada, Mexico, the 
Bahamas, and the Caribbean. We fly a fleet of modern regional 
jets and large turboprop aircraft.
    From an organizational perspective, I report directly to 
Gerard Arpey, the Chairman, President, and Chief Executive of 
both AMR Corporation and American Airlines. I work closely 
with, and sit on, the Executive Committee of American Airlines, 
which is the senior executive group that meets weekly to decide 
policy and make various operational decisions. My senior staff 
and I meet regularly with Mr. Arpey, and we discuss safety 
issues at each of these meetings. Periodically, I brief the 
American Airlines Executive Committee and also the AMR Board of 
Directors on the performance of, and strategic issues related 
to, American Eagle.
    American Eagle has an autonomous safety department that 
reports directly to me. Eagle's Vice President of Safety, 
Captain Ric Wilson, a highly experienced pilot, holds an AVP 
mechanic's license and has undergone extensive training in 
aviation safety practices. Captain Wilson is responsible for 
managing Eagle's various safety programs. He also interacts 
closely and frequently with his counterparts at American, his 
fellow American Eagle executives, the FAA, the NTSB, and the 
other Federal agencies with safety-related oversight 
responsibility. Captain Wilson and I meet or speak on a daily 
basis, and he has access to me 24 hours-a-day.
    American and American Eagle are headquartered in the same 
corporate offices in Fort Worth, and we share best practices on 
a regular basis. The safety departments of both carriers meet 
formally on a quarterly basis and much more frequently on an 
informal basis. We coordinate as much as possible with each 
other while still respecting that each carrier has its own 
operating certificate and that each carrier is monitored, 
audited, and assessed individually by the FAA.
    An example of the transparency of activities between Eagle 
and American is the fact that the Vice Presidents of Safety at 
both American and American Eagle meet regularly with American's 
general counsel to review safety programs and initiatives.
    American Eagle has committed significant resources to the 
creation of a companywide safety culture. We have voluntarily 
adopted numerous safety programs for our flight crews, our 
ground personnel, our managers, and frontline airport 
employees. The programs range from comprehensive self-
evaluation programs to internal audits to an aviation safety 
action program, which has been in place now since early this 
decade for our pilots, but which also covers our mechanics, our 
dispatchers, and soon will cover our flight attendants, as 
well.
    We perform line observation safety audits (LOSAs), we 
participate in the Aviation Safety Information Analysis and 
Sharing Program coordinated by the FAA, as well as a number of 
employee injury-reduction programs.
    We are ready to go with a Flight Observation Quality 
Assurance, or FOQA program, and we are awaiting final FAA 
signoff to commence that program.
    The FAA is currently considering making many of these 
programs mandatory, and we fully support this initiative.
    I'm extremely proud of the aviation professionals at 
American Eagle, and I believe we have the most experienced 
pilots, in particular in the regional industry. On average, our 
pilots have over 10 years of company seniority. Our captains 
average 16 years of seniority and 13,000 hours of flight time 
with our company. Our first officers average more than 4 years 
of seniority and over 4,000 hours of total flight time.
    We have a well-established fatigue policy included in our 
flight manual that not only enables but requires pilots to 
remove themselves from flights they do not feel fit to fly. 
Further, we have a fatigue review board, consisting of a 
management pilot and a member of the Airline Pilots Association 
who reviews conditions surrounding our fatigue events.
    We are confident that we operate an extremely safe airline; 
however, we are also cognizant that we can never be complacent. 
We are continuously striving to improve upon what is already an 
extremely safe operation.
    Thank you again for the opportunity to join you today.
    [The prepared statement of Mr. Bowler follows:]

       Prepared Statement of Peter M. Bowler, President and CEO, 
                     American Eagle Airlines, Inc.

    Chairman Dorgan, Ranking Member DeMint, members of the 
Subcommittee, my name is Peter Bowler and I am President and CEO of 
American Eagle Airlines, Inc., based in Fort Worth, Texas. I am 
responsible for American Eagle Airlines and Executive Airlines, two 
regional airlines that constitute the vast majority of the American 
Airlines regional network.
    I am pleased to have the opportunity to be with you today to 
testify about the relationship between American Eagle and our network 
carrier partner, American Airlines. In the next few minutes I'd like to 
explain how the two airlines are structured, how our employees work 
together, and tell you a little about our principal safety programs.
    American Airlines, American Eagle and Executive Airlines are wholly 
owned by AMR Corporation. The 12,000 employees of American Eagle and 
Executive Airlines operate approximately 1,500 flights each day to 
nearly 160 cities across the U.S., in Canada, Mexico, the Bahamas and 
the Caribbean. We fly a fleet of modern regional jets and large turbo-
prop aircraft.
    From an organizational perspective, I report directly to Gerard 
Arpey, the Chairman, President and CEO of both AMR Corporation and 
American Airlines. I sit on the Executive Committee of American 
Airlines, which is the senior executive group that meets weekly to 
decide policy and make various operational decisions. I interact 
closely with my American colleagues on various aspects of the 
operations of both airlines. Periodically, I brief the American 
Airlines Executive Committee and the AMR Board of Directors on the 
performance of--and strategic issues related to--American Eagle.
    American Eagle has a autonomous Safety Department that reports 
directly to me, rather than an operating executive. Eagle's Vice 
President of Safety, Captain Ric Wilson, a highly-experienced pilot, 
holds an A&P Mechanics license and has undergone extensive training on 
aviation safety practices.
    Captain Wilson is responsible for managing various safety programs. 
He also interacts closely and frequently with his counterparts at 
American, his fellow American Eagle executives, the Federal Aviation 
Administration (FAA), the National Transportation Safety Board (NTSB), 
the Occupational Safety and Health Administration (OSHA) and other 
agencies with safety-related oversight responsibilities. Captain Wilson 
and I meet or speak on a daily basis and he has access to me 24 hours-
a-day.
    American and American Eagle are headquartered in the same corporate 
offices in Fort Worth and we share best practices on a regular basis. 
The safety departments of both carriers meet quarterly and more 
frequently as events warrant. We coordinate as much as possible with 
each other while respecting that each carrier has its own operating 
certificate. The Vice Presidents of Safety at American and at American 
Eagle also regularly review Eagle's safety programs with AMR's General 
Counsel.
    American Eagle has committed significant resources to the creation 
of a safety culture across all aspects of the company. We have adopted 
voluntarily numerous safety programs for our flight crews, our ground 
personnel, our managers and front-line airport employees.
    American Eagle was one of the first regional airlines to implement 
an Aviation Safety Action Program (ASAP) covering our pilots. The 
program has been in active use since 2001 and has been a great source 
of information on how to improve and modify our training, procedures 
and manuals. In subsequent years, we have implemented ASAP programs 
covering our mechanics and flight dispatch employees and we are 
awaiting FAA approval to implement a program this Fall covering our 
flight attendants.
    We have had an active Line Observation Safety Audit (LOSA) program 
in place for at least 8 years. The LOSA program ensures that our flight 
crews operate our aircraft consistent with Federal Aviation Regulations 
(FARs), our Flight Manuals and our training guidelines. During audited 
flights, qualified observers collect data about pilot and flight 
attendant behavior, situational factors, and any safety-related issues 
that may arise during the flight. The results of the audits are 
analyzed and used to improve training practices, policies and 
procedures.
    American Eagle also is a member of the FAA-sponsored Aviation 
Safety Information Analysis and Sharing program (ASIAS), which aims to 
discover systemic safety issues that span multiple operators, fleets 
and regions of the Nation's air transportation system.
    We are awaiting FAA concurrence to implement a Flight Operations 
Quality Assurance program (FOQA). To date, Quick Access data recorders 
have been installed on many of our aircraft. Contracts have been signed 
with an industry-leading vendor to do the analysis on the data those 
recorders will provide. We have also reached agreement with the Air 
Line Pilots Association (ALPA) and local FAA officials on the use of 
this data. FOQA will identify potentially dangerous trends and issues 
so that we can make changes to our training, our procedures and our 
manuals.
    I am proud of the fact that Eagle's Vice President of Flight 
Operations, Captain Jim Winkley, is a member of the Aviation Rulemaking 
Committee (ARC) currently meeting on the topic of flight and duty time 
regulations for commercial aviation as directed by newly-appointed FAA 
Administrator Randy Babbitt.
    In other areas we have gone above and beyond Federal safety 
standards. For example, we have expanded our sterile cockpit policy 
above the minimum standards and we schedule our flight crew members 
above the regulatory requirements. This includes overnight rest periods 
and length of duty days.
    All of our flight crew members are scheduled under FAR Part 121, 
including repositioning and ferry flights. We also have published a 
fatigue policy in our Flight Manual Part 1 and we hold monthly Fatigue 
Review Board meetings with ALPA to review events and schedules that led 
to crewmembers calling in for work saying they were too fatigued to 
fly.
    A critical aspect of our flight safety program is the training 
received by our pilots. As of mid-July, American Eagle had 2,376 
pilots. They are among the most experienced and well-trained pilots in 
the industry. Our Captains average 16 years of company seniority and 
our First Officers average 4 years. The average American Eagle Captain 
has more than 13,000 hours of flight time and our average First Officer 
has more than 4,900 flight hours.
    American Eagle pilots and flight attendants are trained at the 
American Airlines Flight Academy. Although we have not hired pilots 
since Spring 2008, all pilots we hire must have a commercial pilot 
certificate or greater with Airplane Multi-Engine land ratings and an 
Instrument Airplane rating.
    A new-hire pilot receives 40 hours of classroom instruction on 
company policies and procedures, including aircraft performance, pilot 
flight time and rest requirements, Crew Resource Management, and 
compliance with FARs. They also receive 130 hours of classroom and 
computer-based instruction on aircraft systems and emergency training.
    Our flight training is conducted in full-flight simulators and, in 
some cases, an airplane. Pilots receive 38 hours of training and 
testing as well as 22.5 hours of pre- and post-flight briefings that 
involve maneuvers and procedures to be covered in the simulator and 
debriefings on the pilot's performance.
    Once flight training is completed, pilots enter the operating 
experience phase of the training program. A new-hire pilot is assigned 
to fly his or her first revenue flights with a check airman, a pilot 
who is specially-designated by the FAA. The check airman spends on 
average 35 hours supervising and assisting the pilot so that he/she may 
become accustomed to the FAR Part 121 commercial airline operating 
environment.
    In total, a newly-hired pilot will spend more than 265 hours in 
training, satisfying each training phase prior to proceeding to the 
next step, and is subjected to multiple tests before being allowed to 
operate our airplanes in revenue service with a line Captain. Failure 
to satisfactorily complete any phase of training will end that pilots 
employment with the company.
    We continually adjust our training program based on feedback from 
our ASAP and LOSA programs and soon plan to incorporate findings from 
our FOQA program.
    American Eagle pilots also undergo extensive training for flying in 
known icing conditions. Our manuals also contain clear guidance 
regarding ice protection systems operation, which exceeds what the 
aircraft manufacturer provides as well as that required by FARs.
    First-time Captains attend a Captain's Duties and Responsibilities 
course. It focuses on the transition to being the pilot-in-command of a 
FAR Part 121 aircraft. We also conduct simulator training on events 
that flight crew members may experience such as Controlled Flight into 
Terrain avoidance scenarios and Unusual Altitude Recovery Techniques.
    I would also like to note for the Subcommittee that American Eagle 
pilots undergo 28.5 hours worth of recurrent pilot training annually.
    Unlike most of our regional partners, American Eagle has invested 
in a state-of-the-art electronic weight and balance system (EWBS). This 
system uses computer-based automation to ensure aircraft weight and 
balance limitations are never exceeded during any phase of the 
operation. The pilot closeout release will not appear in the cockpit 
until all required parameters are satisfied, therefore preventing an 
improperly loaded aircraft from departing the gate.
    The training for our 1,713 American Eagle and Executive flight 
attendants takes place in the same facility as that used by American 
Airlines to train its flight attendants. Each new hire flight attendant 
must complete a 23-day safety-based training course. Eagle flight 
attendants are trained on both fleet types--Embraer and Canadair--and 
flight attendants at Executive Airlines are trained on the ATR. All 
flight attendants must also complete 2 days of recurrent training every 
year.
    In addition to sharing training facilities, American Eagle is 
working with American Airlines to develop an Advanced Qualification 
Program (AQP) for flight attendants that offers proficiency-based 
training and encourages experiential learning instead of lectures. It 
also integrates TSA requirements into training modules and evaluates 
crews and flight attendants using scenarios that incorporate technical 
and crew resource management challenges.
    From a Maintenance and Engineering (M&E) standpoint, Eagle 
airplanes are maintained by Eagle employees at maintenance bases under 
our control and we operate under a Continuous Analysis and Surveillance 
System (CASS) to monitor the quality of our maintenance and make 
modifications as needed.
    I'm proud to note that American Eagle's maintenance facilities and 
personnel provide a level of quality that was recognized by the FAA in 
2007 with the awarding of the Gold Employers Certificate of Excellence 
Award for the commitment we've made to train our employees.
    We also train our ground employees when they are first hired and 
they receive additional training throughout the year. New hires must 
complete 40 hours of training before working on the ramp. American 
Eagle employees also ground handle American Airlines at 14 airports and 
we also have contracts with other mainline and regional carriers to 
perform ground handling services at airports around the country.
    In addition to American, our other codeshare partners also conduct 
periodic on-site audits of our operations, as does the U.S. Department 
of Defense as a part of our Military Air Transport Agreement. Of 
course, we also undergo audits conducted by the FAA, OSHA and TSA.
    Additionally, we developed and now use an extensive internal audit 
system called an Internal Evaluation Program (IEP). There is no 
regulatory requirement for an IEP; however, the FAA has encouraged the 
use of such a program. An IEP helps us refine our management systems 
and processes to ensure effectiveness and efficiency and that we meet 
internal quality and external regulatory standards.
    In closing, I would like to underscore that both American and 
American Eagle fully support the leadership of the FAA in its efforts 
to insure one level of safety for all air carriers--mainlines as well 
as regionals. We also believe mandatory participation in FOQA, ASAP and 
ASIAS by all Part 121 carriers will further enhance the one level of 
safety concept.
    By virtue of being a wholly-owned subsidiary of the same company as 
our partner airline, American Eagle is in a relatively unique position. 
We recognize that on every American Eagle flight the reputation, of not 
only Eagle, but of American Airlines, is at stake. Although we are 
confident that we operate an extremely safe airline, with thousands of 
highly-trained, experienced and dedicated employees, we also recognize 
that we can never be complacent. We are continuously striving to 
improve upon what is an extremely safe operation.
    Thank you for the opportunity to appear before you today. I would 
be happy to answer any questions that the Chairman or Members of the 
Subcommittee might have.

    Senator Dorgan. Mr. Bowler--excuse me, Mr. Bowler, thank 
you very much.
    Captain Don Gunther is next. He's the Vice President for 
Safety at Continental Airlines.
    Mr. Gunther, you may proceed.

   STATEMENT OF CAPTAIN DON GUNTHER, VICE PRESIDENT; SAFETY, 
                   CONTINENTAL AIRLINES, INC.

    Captain Gunther. Chairman Dorgan, Senators, good morning. 
My name is Don Gunther, and I am Captain and the Vice President 
of Safety for Continental Airlines.
    I served as an Active-Duty pilot for the United States Navy 
for 6 years, and I am a retired reservist. I have flown for 
Continental Airlines for 32 years. I have qualified on the 
Boeing 727, DC-10, and the Boeing 737, 757, 767, and I'm 
currently qualified, and still fly, the Boeing 777.
    On behalf of my over-40,000 colleagues at Continental 
Airlines, it is an honor to testify today before this committee 
on one of the most critical and challenging topics in aviation: 
safety.
    Before I go further, I'd like to share with you how deeply 
saddened the extended Continental family was by the Colgan Air 
accident that occurred near Buffalo earlier this year. Whenever 
there is an aviation accident, here or abroad, all aviation 
professionals worldwide grieve for the loss of the victims, the 
impact on their families, and the impact on our own personnel.
    I have three points to make today, and then I will be happy 
to answer your questions.
    First, we at Continental are committed to air travel 
safety. This is not a finite goal, it is a dynamic process that 
requires all players to strive toward continuous improvement. 
This continuous improvement is one of the essential elements of 
an effective safety management system known as SMS.
    Second, Continental recognizes the leadership and oversight 
role of the Federal Aviation Administration in promoting and 
ensuring airline safety. There should be one regulatory 
standard to safety, and it should apply to all carriers. To 
ensure that level of safety, the FAA is the regulatory body 
responsible for overseeing every aspect of safety of every U.S. 
airline--regional, mainline, or network.
    Third, Continental appreciates the opportunity to share 
some of its thoughts with this committee on how the safety bar 
can be raised. I will address those opportunities later in this 
testimony.
    When it comes to establishing a commercial relationship 
with a regional carrier, the first step for a network carrier 
is to confirm that that carrier has a current operating 
certificate from the FAA, because we recognize the FAA's 
authority as the body responsible for determining the carrier's 
fitness to fly safely, authorizing the carrier's operation, and 
promoting and enforcing government safety standards.
    Continental also obtains reviews--safety audits--performed 
by qualified independent entities, to learn more about a 
regional carrier. These include the International Air Transport 
Association's Operational Safety Audit, known as IOSA. The 
successful completion of an IOSA audit is considered a very 
good indication of a carrier's safe operations.
    Second, the DOD survey, which is an audit performed by the 
military under the Secretary of Defense to ensure safety 
compliance of airlines that transport military personnel.
    Striving to improve safety is the common goal of everyone 
in the airline industry. The aviation community appreciated the 
Administrator's June Call to Action and his leadership in 
asking that all carriers reaffirm their commitment to safety. 
We believe the Call to Action, in combination with this 
committee's safety provisions found in the FAA reauthorization 
bill, will produce meaningful results on key topics, such as 
pilot records, pilot professionalism, and flight and duty time.
    The Senate's FAA reauthorization bill also contains several 
key elements that will enhance safety. We applaud the Chairman 
and the Committee for mandating ASAP, FOQA, LOSA, and AQP. 
These and the other FAA voluntary safety programs provide a 
wealth of data that give the industry more predictive 
information that comes from day-to-day operations.
    If we were to leave the Committee with one suggestion, it 
would be to ensure the availability of FAA voluntary safety 
programs across the industry through financial support and 
legislative protections.
    In 1997, the FAA sponsored the FOQA demonstration project 
for air carriers with an FAA approved program, which included 
one regional carrier. This program included funding for the 
initial FOQA equipment and helped to establish a proactive 
approach to data-driven safety change. A similar approach to 
reach additional carriers would be equally effective.
    ASAP reports provide critical data to airlines who seek to 
adjust their operations or training programs to enhance safety, 
but ASAP reports should be protected data, available to a court 
only under protective order. In the Comair case, once the word 
got out that ASAP reports might become part of the trial 
record, we saw an immediate drop-off in pilot reports. Thus, 
proactive safety enhancements were inhibited.
    Mr. Chairman, let me end where I began. I'm a Captain at 
Continental Airlines, proud of my profession, and proud to 
spend every day of my career striving to improve safety of what 
is recognized to be the safest form of transport today. Safety 
is our shared goal. We look forward to working with you to 
improve safety as we go forward.
    Thank you for your time and attention, and I'm happy to 
answer questions at this time.
    [The prepared statement of Captain Gunther follows:]

  Prepared Statement of Captain Don Gunther, Vice President; Safety, 
                       Continental Airlines, Inc.

    Good Morning. My name is Don Gunther and I am a Captain and the 
Vice President of Safety for Continental Airlines. I served as an 
active duty pilot in the United States Navy for 6 years, and I am now a 
retired Navy Reservist. I have flown for Continental Airlines for 32 
years. I have qualified on the B-727, DC-10, B-737, B-757, B-767 and I 
am currently qualified on and still fly the B-777. And on behalf of my 
over 40,000 colleagues at Continental Airlines, it is an honor to 
testify today before this Committee on one of the most critical and 
challenging topics in aviation--safety.
    Before I go further, I'd like to share with you all how deeply 
saddened the extended Continental family was by the Colgan Air accident 
that occurred near Buffalo earlier this year. Whenever there is an 
aviation accident here or abroad, all aviation professionals worldwide 
grieve for the loss of the victims, the impact on their families and 
the impact on our own personnel.
    I have three points to make today and then I will be happy to 
answer your questions.

        1. We at Continental are committed to air travel safety. This 
        is not a finite goal--it is a dynamic process that requires all 
        players to strive toward continuous improvement. This 
        ``continuous improvement'' is one of the essential elements of 
        an effective Safety Management System (SMS). Continental is 
        committed to working with all members of the aviation community 
        to continuously improve the safety of our air transportation 
        system.

        2. Continental recognizes the leadership and oversight role of 
        the Federal Aviation Administration (FAA) in promoting and 
        ensuring airline safety. Continental understands and embraces 
        its role as an air carrier certificated by the FAA to comply 
        with all applicable laws of Congress and regulations of the FAA 
        diligently, effectively and with commitment to the best 
        interests of safety. Under the FAA regulatory framework, 
        network carriers cannot and should not serve as a safety check 
        for the operations and performance of regional carriers. There 
        should be one regulatory standard of safety and it should apply 
        to all carriers. To ensure that level of safety, the FAA is the 
        regulatory body responsible for overseeing every aspect of the 
        safety of every U.S. airline--regional, mainline or network. 
        Continental is committed to partnering with other members of 
        the aviation community to develop and implement safety 
        solutions that work within the framework prescribed by the FAA. 
        To maintain the integrity of our aviation system, however, 
        network carriers must not usurp the FAA's role by regulating or 
        overseeing the certification and operations of regional 
        airlines.

        3. Continental appreciates the opportunity to share some of its 
        thoughts with this Committee on how the safety bar can be 
        raised. I will address these opportunities later in the 
        testimony.

    In reviewing the testimony delivered by other witnesses before this 
Committee earlier this year, the DOT Inspector General said it best 
with the comment, ``Safety is a shared responsibility among FAA, 
aircraft manufacturers, airlines and airports. Together, all four form 
a series of overlapping controls to keep the system safe.''
    At Continental we agree. Aviation professionals--whether they are 
employed by the government, the airlines, the manufacturers or the 
airports--come to work every day focused on a purpose--to assure 
employee safety and the safe passage of every aircraft and every 
airline passenger 24 hours-a-day, 7 days-a-week, 365 days-a-year.
    Continental recognizes that even one fatality in an aviation 
accident is one too many. This recognition should not diminish our 
understanding of the many accomplishments and safety improvements that 
have been achieved in air transportation. The airline safety record 
compares favorably to other modes of transportation. Since 1938, when 
the government began keeping records of aviation accidents, the very 
worst year for airline fatalities was 1974, with 460 deaths recorded. 
By contrast, more than 40,000 people die each year in highway 
accidents. According to the National Safety Council, which publishes an 
annual report on accidental deaths in the United States and measures 
passenger deaths per 100 million passenger miles, airlines are 
consistently the safest mode of intercity travel, followed by bus, rail 
and automobile. This record speaks for itself.
    Of course, the primary issue of the hearing today is not to 
determine whether the system is safe, but rather to examine the 
relationship between network carriers and regional carriers. The 
primary responsibility for airline safety regulation, for both network 
and regional carriers, lies with the FAA. Carriers are responsible for 
complying with all applicable laws of Congress and FAA regulations. The 
FAA's major safety functions include reviewing the design, manufacture 
and maintenance of aircraft, setting minimum standards for crew 
training, establishing operational requirements for airlines and 
airports and conducting safety-related research and development. In 
short, the FAA sets the safety standards for all airlines, and all 
airlines are each individually responsible for ensuring their own 
compliance.
    But, as the DOT IG pointed out in his statement to the Committee 
earlier this year, the FAA does not get its safety job done without 
extensive collaboration from other partners. Government and industry 
officials commonly work together to address recognized safety problems, 
usually through committees or task forces comprised of representatives 
of equipment manufacturers, airlines, pilots, mechanics, the FAA and 
NASA.
    The Commercial Aviation Safety Team (CAST)--of which I represent 
the industry (ATA, RAA, Boeing, ALPA, etc.) and Peggy Gilligan, the FAA 
Associate Administrator for Safety, represents the Government (FAA, 
NASA, DoD, etc.), is a good example of collaboration within the 
aviation community for the benefit of safety. Examples of issues and 
activities that have been the object of collaboration for the benefit 
of aviation safety include: Aging Aircraft, Collision Avoidance, Wind 
Shear, Flammability Factors, Human Factors and Safety Management 
Systems (SMS).
    Ms. Gilligan and I also co-chair the Aviation Safety Information 
and Analysis Sharing (ASIAS) program. ASIAS brings together data from 
airline Aviation Safety Action Programs (ASAP) and Flight Operational 
Quality Assurance (FOQA) programs with FAA data and other data from 
public sources. Currently these data are aggregated and analyzed by the 
MITRE Corporation and CAST has used this analysis to develop Industry 
Safety Enhancements. ASIAS includes data from both mainline and 
regional carriers and is a monumental step forward in data-driven 
safety change.
    When it comes to regional carriers, the first step is to confirm 
that the carrier has a current operating certificate from the FAA 
because we recognize the FAA's authority as the body responsible for 
determining the carrier's fitness to fly safely, authorizing the 
carrier's operation, and promoting and enforcing government safety 
standards.
    Continental also obtains and reviews safety audits performed by 
qualified independent entities to learn more about a regional carrier. 
These include:

  <bullet> The International Air Transport Association's (IATA) 
        Operational Safety Audit (``IOSA''). The successful completion 
        of an IOSA Audit is considered a very good indication of a 
        carrier's safe operations.

  <bullet> The DOD Survey, which is an audit performed by the military 
        under the Secretary of Defense to ensure safety compliance of 
        airlines that transport military personnel.

  <bullet> Other network carrier audits conducted using internally 
        developed checklists, which are traditionally derived from IOSA 
        standards. These audits may occur by an individual carrier or 
        using shared resources when a regional operator partners with 
        more than one network carrier.

    Continental communicates regularly with regional carriers and 
follows up on any notice it receives of safety or operational concerns 
relating to regional carriers.
    We in the aviation community appreciate the opportunity to discuss 
real issues and challenges in our industry. This Committee and the FAA 
have taken significant and constructive steps toward improving safety 
in the aftermath of the Colgan Airlines accident.
    Striving to improve safety is the common goal of everyone in the 
airline industry. The aviation community appreciated the 
Administrator's June ``call to action'', and his leadership in asking 
that all carriers reaffirm their safety commitment. Continental has and 
will continue to do so. We believe the ``call to action'' will produce 
meaningful results on key topics such as pilot records, pilot 
professionalism and flight and duty time. Continental participated in 
the first meeting here in Washington in June and will be participating 
in the subsequent ``road shows'' that are scheduled to take place 
around the country this summer.
    Furthermore, Continental is an active participant in the FAA's 
Advisory Rulemaking Committee (ARC) on Flight, Duty and Rest 
Requirements. We remain committed to the Administrator's stated goal 
that we should have a proposal ready by Labor Day and are actively 
attending all sessions and contributing to the final product. We are 
optimistic that the ARC will embrace SMS as a basis for moving forward 
with flight and duty time regulations. SMS is an overarching philosophy 
under which all functions of airline management take an active role in 
contributing toward safety awareness, education, cost justification, 
resource allocation and conservation, product reliability and overall 
performance.
    The FAA Reauthorization Bill, which you and your colleagues 
introduced just a few weeks ago, contains several critical elements 
that will enhance safety. We applaud the Chairman and the Committee for 
mandating ASAP, FOQA, LOSA and AQP. These, and the other FAA voluntary 
safety programs, provide a wealth of data that give the industry more 
``predictive'' information that comes from day-to-day operations. 
Continental Airlines already has all of the FAA voluntary safety 
programs in place and we are proud of the work that we do with our ALPA 
coworkers and the FAA to make sure the data collected through these 
programs enhances training and operations to improve the level of 
safety at Continental.
    Success stories using FOQA and ASAP data to drive safety change 
occur on a regular basis at Continental. I would like to share with you 
one Continental experience that shows the power of this proactive 
approach to reducing risk. Initially, both FOQA and ASAP data indicated 
that a small number of our crews were not following the Traffic 
Collision Avoidance System (TCAS) commands to climb or descend. Even 
though the numbers of crews not following the TCAS commands were low, 
the risk was assessed as high by members of the Flight Operations 
Safety Action Team, which includes members from Flight Operations, 
Training, ALPA Safety and FAA personal from our local office. The 
decision was made to enhance TCAS training in both ground school and 
simulator training. Following this training, the data showed near-
perfect compliance by the Continental flight crews. This issue and its 
implemented solution occurred 18 months prior to a tragic mid-air 
collision (not involving Continental) over Germany due in part to TCAS 
compliance issues on the part of a crew. In other words, the predictive 
data we obtained through FOQA and ASAP allowed us to identify a trend, 
make a change in training and follow-up with ongoing monitoring for 
compliance--clearly a successful outcome for all parties.
    If we were to leave the Committee with one suggestion, it would be 
to ensure the availability of FAA voluntary safety programs across the 
industry through financial support and legislative protections. In 
1997, the FAA sponsored the FOQA Demonstration Project for air carriers 
with an FAA approved program, which included only one regional carrier. 
This program included funding for the initial FOQA equipment and helped 
to establish a proactive approach to data-driven safety change. A 
similar approach to reach additional carriers would be equally 
effective. After the COMAIR accident in Lexington several years ago, 
attempts were made to use ASAP reports as evidence in the trial. ASAP 
reports provide critical data to airlines who seek to adjust their 
operations or training programs to enhance safety. But ASAP reports 
should be protected data available to a court only under a protective 
order--in the COMAIR case, once the word got out that the ASAP reports 
might become part of the trial record, we saw an immediate drop off in 
pilot reports, thus proactive safety enhancements were inhibited.
    Mr. Chairman, let me end where I began. I am a Captain at 
Continental Airlines--proud of my profession and proud to spend every 
day of my career striving to improve the safety of what is recognized 
to be the safest form of transport today. Safety is our shared goal, 
and it is why I am here today. We remain firmly committed to the 
collaborative process that we believe yields the most positive results 
to help this industry prevent the next accident. We look forward to 
working with you to improve safety going forward. Thank you for your 
time and attention, and I am happy to answer questions at this time.

    Senator Dorgan. Captain Gunther, thank you very much for 
being here.
    And, finally, we will hear from Captain Dickson, who is a 
Senior Vice President for Flight Operations at Delta Air Lines.
    Captain Dickson?

STATEMENT OF CAPTAIN STEPHEN M. DICKSON, SENIOR VICE PRESIDENT, 
               FLIGHT OPERATIONS, DELTA AIR LINES

    Captain Dickson. Thank you Mr. Chairman. I want to thank 
you and the Committee for holding this hearing.
    All of us in the airline industry have as our first 
responsibility the task of getting you and all of our customers 
to their destinations safely. It's a straightforward goal, but 
underlying it is a complex set of processes that have been 
developed over time and provide a remarkable platform for 
success in the U.S. aviation industry.
    Delta currently operates more than 2,500 mainline flights 
per day and 3,500 per day through our nine regional operators, 
all under the umbrella of Delta Connection. We continuously 
monitor all 6,000 flights, as safety in this industry is not a 
competitive issue for us, but, rather, a collaborative one, 
where we share best practices with each other as a routine 
matter. We all feel the loss when an accident occurs.
    This hearing's letter of invitation reminds us that we must 
continually examine and constantly improve aviation safety. At 
Delta, we are continuously driving enhancements to our safety 
programs, not only for our mainline operations, but with all 
nine of our regional affiliates at Delta Connection.
    Oversight plays a critical role in aviation safety. 
Congressional, administrative, and internal oversight all 
continue to drive home the simple objective that safety is 
first. Delta supports and strongly endorses Administrator 
Babbitt's call to action, and we are working with the FAA on 
the important initiatives outlined therein.
    And I would now like to address the three areas that the 
FAA has asked each of us to review, beginning with the Pilot 
Records Improvement Act.
    Delta has a long-standing practice of requiring pilot 
applicants to complete the PRIA check prior to hiring and 
training, and to provide privacy waivers that allow us to 
perform thorough background and performance checks. This 
includes the voluntary disclosure of FAA records, as well as 
any information regarding any accidents, incidents, or 
violations, including pending investigations.
    We perform an extensive review of applications, based on 20 
competitive factors. The applicant then completes an in-depth 
interview and testing process, which measures complex problem-
solving skills, personality characteristics, and cockpit fit.
    Successful candidates proceed to a medical exam, 
psychological evaluation, and a cognitive test that evaluates 
the individuals' ability to multitask in the cockpit.
    Delta Connection carrier pilot hiring processes are all 
conducted by the certificateholder under Part 121, and those 
processes are regulated and inspected by the FAA.
    Second is FOQA and ASAP. Delta has existing ASAP and FOQA 
programs. These programs have been expanded beyond pilots to 
include dispatch, maintenance and load planners, covering 
nearly 20,000 of our employees. Our data analysis process 
supporting all these programs is strong, with closed-loop 
processes that directly provide feedback to the appropriate 
training programs. Today these multiple data sources allow us 
to identify and analyze trends and achieve the goal of a 
proactive safety management system. While these programs are 
deemed voluntary, we work with our regional carriers to ensure 
they successfully implement and manage these enhancements. We 
believe all of our regional carrier partners should have FOQA, 
ASAP, IOSA, and DOD certifications.
    The third area is regional carrier oversight. At Delta, we 
ensure that our nine regional carrier partners have robust 
operations and safety programs. It's our job to set the 
standards. Under the DOT and FAA regulatory system, each 
regional carrier has the responsibility to manage its own Part 
121 operations. Therefore, we do not and cannot directly manage 
our regional partners' safety and quality issues. However, we 
do go to great lengths to ensure they have a solid safety 
record and fully comply with all regulations.
    Moreover, we believe the oversight function is so important 
that two of our senior officers at Delta, both of whom report 
to Delta's Chief Operating Officer, directly oversee our 
regional partners' operations and safety programs. The Delta 
Connection carriers have committed to achieving the highest 
levels of safety in accordance with our standards. We're 
requiring all of them to operate with a standard dashboard of 
safety metrics similar to those that we use a mainline Delta. 
We hold monthly meetings with all connection carriers to review 
operational and safety performance.
    Finally, I want to add that, while the airline industry has 
the best safety record of any mode of transportation, even one 
avoidable accident is too many. As we're sitting here, the FAA 
has commenced a call-to-action conference in Atlanta today, and 
until I received your invitation a few days ago, I had planned 
to lead our delegation at that event.
    We look forward to working with you, Mr. Chairman and this 
Committee, as well as the Administrator, to see that necessary 
upgrades to our safety programs are made. Our customers, our 
industry, and our Nation deserve nothing less.
    And finally, in closing, Mr. Chairman, I'd like to note and 
acknowledge the presence of Captain Lee Moak, our ALPA MEC 
Chairman, along with the Chairman and Vice Chairman of our nine 
regional partners, who have joined us, in a collaborative 
spirit today, on aviation safety.
    Thank you.
    [The prepared statement of Captain Dickson follows:]

     Prepared Statement of Captain Stephen M. Dickson, Senior Vice 
             President, Flight Operations, Delta Air Lines

    Mr. Chairman, I want to thank you and the Ranking Member for 
holding this hearing. All of us in the airline industry have as our 
first responsibility every day and on every flight--to get you and all 
of our customers to their destinations safely. We know our customers 
also want to arrive on time and on schedule, but first and foremost, 
safely. It is a straightforward goal, but underlying that objective is 
a complex set of processes that have been developed over time and 
provide a remarkable platform for success in the U.S. aviation 
industry.
    We also recognize when an accident occurs, it is a true tragedy, 
not only for the loved ones and crew members on that flight but for the 
entire aviation industry. I have been involved in aviation for over 30 
years and in the airline business for almost 20 years. As the Senior 
Vice President of Flight Operations and a Delta 767 captain, I am 
responsible for Delta's 12,400 pilots flying in the mainline operation. 
Additionally, I oversee Delta's day-to-day flight operations, as well 
as pilot training, pilot standards, technical support, pilot staffing 
and scheduling, as well as our quality assurance/compliance functions. 
I also serve on Delta's Operations Council. Prior to joining Delta, I 
graduated from the U.S. Air Force Academy and flew F-15s in the Air 
Force and fully appreciate the importance of high level safety 
standards. Today, I am a member of the IATA Operations Committee, serve 
as Chairman of the ATA Operations Council, Chairman of the RTCA NextGen 
Implementation Task Force and Chair of the Air Traffic Management 
Advisory Committee (ATMAC).
    Delta currently operates more than 2,500 flights per day as part of 
our mainline operation and 3,500 per day through our 9 regional 
operators--all under the umbrella of Delta Connection. We continuously 
and closely monitor all 6,000 flights per day as safety in this 
industry is not a competitive issue for us but rather a collaborative 
one where we share best practices with each other as a routine matter. 
We all feel the loss when an accident occurs.
    The hearing's letter of invitation captured the issue at hand most 
succinctly: ``While the U.S. aviation industry is experiencing the 
safest period in its history, the tragic accident of Flight 3407 on 
February 12, 2009, reminds us that we must continually examine and 
constantly improve aviation safety.'' This is absolutely true.
    At Delta, we are continuously driving enhancements to our safety 
programs not only for our mainline operations but with all nine of our 
regional affiliates at Delta Connection. Oversight plays a critical 
role in aviation safety--Congressional, Administrative and internal 
oversight all continue to drive home the simple objective--safety is 
first.
    In June, we saw considerable focus on the importance of improving 
regional airline safety, including this Committee's hearings, as well 
as Secretary LaHood and Administrator Babbitt meeting with carriers and 
pilot unions to review specific areas to achieve improvements. 
Following the meeting with industry leaders, the Administrator sent a 
letter to each carrier seeking policy changes on pilot records. The 
letter also announced regional safety forums and asked each carrier to 
implement Flight Operations Quality Assurance (FOQA) and Aviation 
Safety Action Programs (ASAP) (which we have done at Delta and are in 
the process of implementing at all Delta Connection carriers). We 
support and strongly endorse Administrator Babbitt's actions and are 
working with the FAA on these important initiatives.
    I want to add that as the Aviation Rulemaking Committee initiative 
moves forward, we are working directly with the FAA on safety issues 
through a wide web of safety working groups. Delta personnel are active 
members on many industry safety groups. This is an ongoing process for 
us and for the FAA.
     I want to address the three areas that the FAA has asked each of 
us to review.

1. Pilot Records Improvement Act (PRIA) at Delta
    Delta has a long-standing practice of requiring pilot applicants to 
provide privacy waivers that allow us to perform thorough background 
and performance checks. This includes the voluntary disclosure of FAA 
records. Delta further requests information regarding any reported or 
unreported accidents, incidents or violations, including pending 
investigations. We perform an extensive review of applications based on 
20 competitive factors, which exceeds FAA requirements (i.e., 
education, prior work experience, etc.). The applicant then completes 
an in-depth interview and testing process, which measures complex 
problem-solving skills, personality characteristics and cockpit fit. 
Successful candidates proceed to a medical exam, psychological 
evaluation and a cognitive test suite that evaluates the individual's 
ability to multitask in the cockpit.
    All newly hired pilots are required to complete the PRIA check 
prior to hiring and training. As verification of our process, in 2008, 
Delta passed a records review by the FAA of all PRIA checks for 2007 
and 2008 new hire pilots. Delta Connection carrier pilot hiring and 
training systems are all conducted by the certificateholder in 
accordance with Part 121 and those processes are regulated and 
inspected by the FAA.

2. FOQA and ASAP at Delta
    Delta has existing ASAP and FOQA programs. These programs have been 
expanded beyond Pilots and Flight Operations, to include Dispatch, 
Maintenance and Load Planners, totaling nearly 20,000 employees. 
Particularly, our Delta Connection carriers have safety program 
elements such as ASAP and FOQA, as well as IOSA registration, DOD 
certification, safety management systems, and special winter operating 
programs. While these programs are deemed voluntary under FAA rules, we 
work with our regional carriers to ensure they are successful in 
implementing, managing and overseeing these enhancements. We believe 
all of our regional carrier partners should have FOQA, ASAP, IOSA and 
DOD certifications.
    Our data analysis process supporting all these programs is strong, 
with closed-loop processes that directly provide feedback to the 
appropriate training programs. Utilizing our pilot training data and 
audits, ASAP, FOQA and employee reports, we understand that no one 
system provides a clear picture of an issue but instead combine this 
data enabling us to see trends develop. Today, these multiple data 
sources allow us to analyze trends and achieve a proactive safety 
management system.

3. Regional Carrier Oversight
    At Delta, we ensure that the certificated 121 regional carriers 
flying as Delta Connection carriers have robust operations and safety 
programs. Our nine regional carrier partners represent a substantial 
percentage of our available seat miles and it is our job to set the 
standards for our carriers. Under the DOT and FAA regulatory system, 
each regional carrier has the responsibility under its Certificate of 
Public Convenience and Necessity to manage its Part 121 operations. 
That legal responsibility, under our regulatory structure, rests with 
the designated leadership of each certificated carrier. Therefore, we 
do not, and cannot, directly manage our regional partners' safety and 
quality issues. Delta does go to great lengths to ensure that these 
carriers flying our passengers have a solid safety record and fully 
comply with all Part 121 regulations.
    Delta assumes the responsibility to closely monitor all levels of 
the operation. In fact, we believe the oversight function is so 
important that two of our senior officers, both of who report to 
Delta's COO, directly oversee our regional partners' operations and 
safety programs. We require our regional partners to fully comply with 
Part 121 regulations. In addition, we are requiring all of our regional 
partners to operate with FOQA, ASAP, IOSA and DOD Programs and 
Standards. We closely oversee their operations by requiring a standard 
dashboard of safety metrics and reporting similar to the methodology we 
employ at mainline Delta.
    Specifically:

        A. The Delta Connection Carriers have committed to achieving 
        the highest levels of safety in accordance with the Delta 
        standards.

        B. The Delta Connection Carriers are implementing a common set 
        of safety programs and metrics.

        C. We hold monthly meetings with all Delta Connection Carriers 
        to review operational, safety and regulatory performance. Our 
        standing monthly agenda includes a review of top-level safety 
        performance metrics that are common among all carriers, review 
        of safety investigations and our quality audit and safety 
        reporting programs, review of each carrier's response to FAA 
        Safety Alerts and discussion on common strategies to mitigate 
        current industry safety risks.

        D. We will include contractual language in our Delta Connection 
        Airline Services Agreements regarding the operational and 
        safety requirements to be a Delta Connection Carrier.

    Finally, I want to add that while the airline industry has the best 
safety record of any mode of transportation, even one avoidable 
accident is too many. As we are sitting here, the FAA has commenced a 
Call to Action conference in Atlanta today. Delta has sent its key 
leadership to the meeting as we all seek to improve safety. In fact, 
until I received your invitation a few days ago, I had planned to lead 
our delegation at that meeting. We look forward to working with you, 
Mr. Chairman, and this Committee, as well as the Administrator, to see 
that necessary upgrades to our safety programs are made. Our customers, 
our industry and our Nation deserve nothing less.

    Senator Dorgan. Captain Dickson, thank you very much for 
your testimony.
    Mr. Trenary, your company, Pinnacle and Colgan, flies as a 
partner for U.S. Airways, United, Northwest, Delta, and 
Continental. And it--I guess the question--one of the 
overriding questions for me at this hearing is, What 
responsibility does a major carrier that employees a regional 
carrier by contract have for the standards at that regional 
carrier?
    I will be flying tomorrow, and when someone asks me, ``What 
carrier do you take?'' I'll say, ``Northwest.'' I probably 
won't be on Northwest; I'll be on a plane that's painted with 
``Northwest'' on it, or ``Delta,'' perhaps. But, I never tell 
anybody, when they say, ``What are you flying?'' I say, 
``Pinnacle.'' I've never said that, just because, I--you know, 
I have a Northwest ticket and are--going back and forth to 
North Dakota.
    And so, the question is, What are the standards, here, that 
Continental would apply to the regional partner, or that United 
or Delta would apply to the regional partner, when they employ 
either a Pinnacle or a Colgan? And it--the two captains raised 
the question, and, I think, answered it, saying--I think 
Captain Dickens said--Dickenson--Dickson, rather, said, ``We 
cannot, and do not, manage the safety issues of the regional 
carriers.'' And I believe, Captain Gunther, you stated that you 
didn't believe that network carriers should serve as a safety 
check for the operations and performance of the regional 
carriers. I think the position is, that's the FAA's job.
    My question, though, is, If a network carrier, a major 
carrier, is deciding to contract and put their colors and their 
brand and their logo on another fuselage, do they not have a 
responsibility? And, if so, what is that responsibility, beyond 
the FAA, with respect to procedures, training, and so on?
    Give the two captains a chance to answer that.
    Captain Gunther. Chairman, you're correct, we firmly 
believe that the FAA sets the standard, industrywide. But, 
additionally, when we look at our regional carriers, besides 
the steps I outlined in my opening statement, where we will 
look at those third-party audits, make sure they have a 
certificate, we do an onsite visit to ensure they have the 
processes and controls in place to stay compliant with those 
standards. In addition to that--and I will state this; it's 
been years--we have been an open door at Continental to show a 
carrier our safety programs. The problem is, if I take my 
standards, which are based on the FAA standards, and put those 
onto another carrier, that carrier may have agreements with 
three other major carriers; and if they do the same thing, I 
think that may create more of an issue for that carrier. But, 
rather, what I would see us do is open up programs that we find 
beneficial, ask those carriers to take those programs, see how 
they fit into their operation, and develop those. And one thing 
I've always said is, ``After you develop those programs--and we 
will assist you--bring it back, because there's something you 
made better, and we want to share best practices.''
    Senator Dorgan. But, that approach represents opportunity, 
rather than responsibility, it seems to me.
    Captain Dickson, do you want to respond?
    Captain Dickson. Mr. Chairman, I think we do have a 
responsibility, but it goes beyond what the regulations 
require. In other words, as you pointed out very succinctly, 
those are Delta passengers on our aircraft, so, from a customer 
service prospective, from an operational perspective, and from 
a safety perspective, we, at the mainline carrier, certainly 
want them to perform to the levels that we have set out for 
them. So, there's a distinction between managing individual 
programs and requiring that those programs and processes exist. 
And as a matter of course, we actually have a tighter co-chair 
relationship, in that respect, with our feeder carriers than we 
do with our international co-chair partners. Normally we use 
the IOSA process to cover that.
    Senator Dorgan. I think you'll be asked about the 
international issue this morning, as well, perhaps.
    But, Mr. Bowler, does American Eagle fly as a regional 
carrier for a company other than American?
    Mr. Bowler. We do not have any aircraft dedicated to flying 
for other mainline carriers. However, in a few of the cities we 
serve, we carry other airline codes on our aircraft.
    Senator Dorgan. And what's the relationship between 
American and American Eagle with respect to the 
responsibilities for training and so on? You--is there a 
relationship that is different than the other carriers?
    Mr. Bowler. Well I think the fact that there is common 
ownership--and in my position reporting to the Chief Executive 
at American, with full transparency and regular meetings, it 
enables us to view our customers in common. There may be a 
greater flow of information and a greater sharing of best 
practices and current performance and metrics, than might be 
the case between carriers which don't share a common ownership.
    Senator Dorgan. Mr. Trenary, the fact is, regional carriers 
are paying lower salaries than the network carriers in the 
cockpit. Is that correct?
    Mr. Trenary. That's correct.
    Senator Dorgan. And more and more flights, particularly to 
the spokes of hub-and-spoke systems, migrated to the regional 
carriers. My assumption is, one of those reasons would be for 
economics. You can--economic reasons--you can pay a crew less 
money if they're riding--or, if they're working on a regional 
carrier than a network carrier. And so, a network carrier sends 
its plane, with its name on, owned by another company, in to 
pick up passengers and take them to the hub, and are paying 
less for that.
    And so, the question--and, again, my understanding is four 
of the last crashes that have occurred--commercial aviation 
crashes--have been with regionals. And I don't know what that 
says, actually, but the question is, Isn't there, by 
definition, less experience in the cockpit and a circumstance 
where you might feel differently riding on a network carrier 
versus a regional carrier, just because you have less 
experience and are paying less money, and perhaps are 
attracting a different kind of crew?
    Mr. Trenary. Mr. Chairman, you should not. The most 
important word here is ``competency.'' The drive toward the 
regional aircraft that we have today was not to have the 
ability to pay pilots less. We didn't have the aircraft we have 
today, 20 years ago; we didn't have the regional jets, we 
didn't have the new-generation turboprop aircraft. We have so 
many more aircraft, with much more capability. The markets we 
fly to, almost exclusively, would not work with the mainline 
aircraft we have today. So, it's more an issue of aircraft 
versus any sort of labor issue, as far as making that work.
    It's important to recognize that the pay structure is one 
that's been around a very long time. It's the one I came into. 
If you look at the Administrator, I think he'd share with you 
that what he came into, relative to what a regional pilot comes 
into today, versus 10, 20 years ago, is very much the same. 
There have been increases. I urge you, please do not ever 
equate professionalism and competency with pay. There are many 
aviation professionals in the cockpits of airplanes landing at 
the airport here today that are highly professional, some make 
over $100,000, some make less than that. They are all 
professionals.
    As for the competency issue, too many people equate hours 
as being the sole factor you look at for experience. Thirty 
years ago, that was true; today, it's not. We have so many 
tools we use--advanced training, the high-tech simulators. The 
young people who are coming to our cockpits today have so much 
more to work with now than they did even a decade ago. So, I'm 
very confident putting customers on these airplanes for our 
partners.
    Senator Dorgan. Right. I have other questions. I'll wait 
until other have completed their questioning. But, I have a 
fair number of questions about fatigue, crew rest, a wide range 
of issues, that I want to cover today. But, in fairness to all 
my colleagues, I want to recognize all of them first.
    Senator Hutchison?
    Senator Hutchison. I'd like to ask all four of you, the 
NTSB and other stakeholders have suggested additional use of 
the cockpit image and voice recorders as safety and analysis 
tools. What are your thoughts on added use? I mean, we all know 
that the cockpit voice recorders have been very valuable, and 
the recorders that show how a plane is pitched and all of the 
technical data, as well. But, there can be more, and they can 
be longer. My question is, to all of you, would that be a good 
addition? Would you support it?
    Let me start with Captain Dickson and we'll go down the 
line.
    Captain Dickson. Thank you, Senator. I do believe there is 
a possibility to begin down that path. However, it would have 
to be under the auspices of a voluntary safety program, and 
handled in the same manner as FOQA data, where it's de-
identified and put in with all the other data-sharing that we 
have. I think that's the only way to move forward with a 
program like that.
    Senator Hutchison. Voluntary on the part of the pilots?
    Captain Dickson. In other words, as part of a program such 
as FOQA or ASAP, under the current voluntary safety programs 
that are already set up with the FAA. Of course, if those 
become mandated, it could be part of those programs, as well. 
The point is it would have to be handled very carefully, and be 
part of a trend system, as we see with FOQA data today.
    Senator Hutchison. Thank you.
    Captain Gunther?
    Captain Gunther. I would share the caution. With the 
cockpit voice recorder, when the NTSB works with that, it's in 
a very structured investigation, and many times the cockpit 
voice recorder is very difficult to establish a timeline with 
the real-world dynamics of the airplane, and takes time.
    Additionally, statements made out of context, which may be 
just a stress-relief statement or to bring people back into the 
situation, can be misconstrued. So, the protections for that 
would be very important.
    And I would tend to agree that a voluntary program, where 
you have the three parties agree to it--the regulator, the 
company, and the association--and much like an ASAP or FOQA 
program, may be effective, but there are some technical issues, 
especially with the CVR.
    Senator Hutchison. Mr. Bowler?
    Mr. Bowler. I'd share Captain Gunther's perspective. I 
think there may be information that would be valuable from a 
more systematic program, but I think one of the foundations of 
the programs that have made the biggest difference is that they 
have come as a result of a collaborative approach to data-
gathering and -sharing, and that's only possible when all three 
parties believe that it's in their best long-term interest to 
participate.
    So, I think it would be critical to have our pilots' 
association onboard, and appropriate safeguards of how the 
information is going to be used.
    Senator Hutchison. Mr. Trenary?
    Mr. Trenary. I agree with Peter. We used to use FOQA as a 
accident investigation tool. Today, it's accident prevention. 
The same could be true for the CVR. The key is, as the other 
panelists have indicated, we could do it exactly like ASAP, as 
far as having collaboration with the pilots. The people who run 
the professional standards--air carriers--are very focused on 
aviation safety. We can put it in their hands, de-identified, 
and report back to management, just as we do with ASAP and 
FOQA. And I believe that would be a tremendous help--and make 
the CVR, not just an investigation tool, but a prevention tool 
as well.
    Senator Hutchison. I'd like to ask Mr. Bowler and Mr. 
Trenary, given their two different perspectives. Obviously, a 
carrier that contracts with another company for use of 
airplanes flying under the carrier name has the right to 
inspect and have certain safety rules. My question is, how much 
is that used--Mr. Trenary, from the standpoint of a contractee, 
and, Mr. Bowler, from a contractor standpoint--how much do you 
have your own people inspecting these contract airplanes that 
are used?
    Mr. Trenary?
    Mr. Trenary. Having them inspect us?
    Senator Hutchison. Yes.
    Mr. Trenary. Yes, it's an ongoing basis. If you look at 
each carrier, each one is a little different, but, to use Delta 
and Continental as examples, the Delta operation is the 
collaborative that we talked about, where you have the metrics, 
the meetings, sharing best practices. Part of that is sharing 
audits that we have, which, gives them insight into what's 
going on in our fleet. So, it's a very structured environment, 
where you're looking at the different metrics, what's driving 
safety issues and best practices.
    At Continental, it's very much the same way, as far as, 
``What do you need? What can we help you with?'' It's constant 
communication. A great example is on Colgan. Continental has 
offered to help establish their ASAP program. Continental has 
an outstanding CRM program, with additional fatigue threat and 
error management as part of the program that Colgan and 
Pinnacle have adopted. So, they see all of our audits, 
including IOSA, DOD, and any independent audits we do, in 
addition to our own work. They ride on our aircraft. There are 
visits from time to time. But, the real foundation for the 
audit process between the carriers goes to the formal programs, 
back and forth.
    Senator Hutchison. OK.
    Mr. Bowler?
    Mr. Bowler. We have similar audit programs that we 
undertake ourselves and which are performed on Eagle and 
Executive Airlines by the FAA, by the DOD, and by other code-
sharing carriers. Those are, of course, made available to, and 
reviewed by, the safety executives at American Airlines. And, 
as well, as a part of virtually all of our meetings that review 
performance of American Eagle, whether it's briefing the 
Chairman or it's briefing my fellow members of the Executive 
Committee at American, they include safety components, which 
may include these items or they may include items that not----
    Senator Hutchison. Do you have an ongoing program? You're 
self auditing, which I think is very good, but do you also have 
an inspection routine with your contracts?
    Mr. Bowler. Well we--American Eagle and Executive Airlines 
represent in excess of 90 percent of the total regional 
operations for American Airlines. So, those activities--all of 
the audit and surveillance activity performed on us, on our two 
regional certificates--are made fully available to--provided to 
the American Airlines safety department, and they are reviewed, 
at a high level, with the senior executives, as a part of 
Eagle's ongoing governance processes.
    American does have a contract with one additional regional 
carrier, and it reviews similar information on that carrier.
    Senator Hutchison. You do have inspection routines, as 
well, on the contract carriers that carry American Eagle's name 
but that you're contracting for the airplane.
    Mr. Bowler. Well, you know, American Eagle does not 
contract with other regional airlines.
    Senator Hutchison. Do you contract with other airplane 
providers?
    Mr. Bowler. No. Eagle has a relationship with American. 
American has a----
    Senator Hutchison. Right. I'm----
    Mr. Bowler.--relationship with Eagle and with one other 
regional airline, Chautauqua Airlines. And they----
    Senator Hutchison. I understand that. What I'm trying to 
find out is, do you contract with another company to use their 
airplanes, flying under your name, American Eagle's name?
    Mr. Bowler. No.
    Senator Hutchison. Thank you.
    Mr. Bowler. The--we own Executive Airlines, and that 
operates in the Caribbean and Florida and----
    Senator Hutchison. But you own the planes.
    Mr. Bowler.--carries--we own the airline. It's----
    Senator Hutchison. Correct.
    Mr. Bowler. It's a subsidiary, actually, of American Eagle 
Holdings Company.
    Senator Hutchison. As I understand it, you're saying you 
don't contract to use someone else's airplanes.
    Mr. Bowler. That's correct.
    Senator Hutchison. Thank you.
    Senator Dorgan. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman, again, 
for holding this hearing. And for the four participants, thank 
you for being here.
    First, I want to make sure you know where I'm coming from. 
And I do this at every one of these, because I think you need 
to understand my personal interest, but also my legislative 
interest, here. I lost my father when I was 10 in a plane, a 
smaller plane. He was never found. It was the largest air 
search in the Nation's history. And because of that result, 
locator beacons were then required in planes, after that. So, I 
come from a unique experience. My mother was 34 years old and 
had to raise six kids. So, I want to give you, kind of, where 
I'm coming from, so nothing is personal to you, but it is 
personal to me.
    I'm going to ask you two, first, quick questions, and this 
can be, hopefully, ``yes'' or ``no,'' and then I'm going to 
follow up on, I think, a couple questions that Senator 
Hutchison asked.
    First, do you have any opposition--there's some legislation 
that's moving through regarding adding a safety member to the 
FAA's Management Advisory Council. Why don't we just start down 
the row, here. Do you have any objection to adding a safety 
member to the FAA Council?
    Captain Dickson. Delta has no objection.
    Captain Gunther. No objection.
    Mr. Bowler. I can't imagine--no.
    Mr. Trenary. No.
    Senator Begich. The second one is, On the websites and any 
activity that identifies your carrier, would you object to any 
format to identify who your subcarriers are? Mostly for the 
majors. Like when you have American Airlines, and if it's Eagle 
flying, it should say ``Eagle.''
    Captain Dickson. I'm not sure I should speak for the 
corporation on that. Certainly, from an operational 
perspective, there's no impact to me, but it's really beyond 
what I'm responsible for.
    Senator Begich. Would you relate to your corporate entity 
that I'd like a response to that?
    Captain Dickson. Absolutely.
    [The information referred to follows:]

    Answer. The actual operator, as required by DOT, is identified at 
the time of purchase. For Delta, the specific operator is identified to 
customers when they purchase through our reservations phone lines, and 
the information is displayed for Internet users on our website. In 
addition, the ``operated by'' identification is made again on the 
ticket and again on the boarding pass. Finally, for Delta and Delta 
Connection customers boarding a regional aircraft, the regional partner 
is displayed on the fuselage of the aircraft just outside the boarding 
door. Attached is an example of the ``operated by'' identification 
found on our website delta.com.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Captain Gunther. Senator--and, again, I'm in safety, but my 
understanding of DOT regulations is, we're required to do that. 
And there are a number of--either a check-in, whether it's 
online or at the station where that is shown--I know it's on--
on our ticket stubs, it does show who they're flying on.
    Senator Begich. On the stub, but the websites are the----
    Captain Gunther. And I believe it is also on the website 
for Continental, yes, sir.
    Senator Begich. Very good.
    Mr. Bowler. As it is for American and American Eagle.
    Senator Begich. I don't know if--let me go into--I'm going 
to follow up, and I want to make sure I understand this 
correctly. In the contracts that you sign with regionals--
because there's an agreement; it's not just, you call them up 
and say, ``Give me a plane.'' You have a detailed contract. I 
can only imagine how detailed it is. In there, you must have a 
safety level and standard that you require. Would I--am I 
correct on this? And this, again, is just ``yes'' or ``no,'' 
because I'm going to get into the next question.
    Captain Dickson. That's correct, at Delta.
    Captain Gunther. That's correct, sir.
    Mr. Bowler. Yes.
    Mr. Trenary. Yes.
    Senator Begich. OK. Within that, are there scheduled 
routine requirements of inspecting, not just audits, but, I 
mean, physical inspections, by the majors into the regionals, 
of their safety and what they're doing or not doing?
    Captain Dickson. There are not, currently. I will tell you 
that the contracts at Delta right now are in a little bit of a 
state of flux, due to the merger with Northwest. So, we are 
actually evolving and merging the two oversight programs that 
Delta and Northwest had with their respective regional feeders.
    Senator Begich. So, that's not in there now.
    Captain Dickson. It is not--inspection processes, per se, 
are not in there, no. No, Senator.
    Captain Gunther. And not in the Continental contracts.
    Mr. Bowler. No. It--the agreement between American Airlines 
and American Eagle are agreements between two subsidiaries----
    Senator Begich. But, I--I understand that, but I guarantee 
you, they're separate entities, so if you go bankrupt, they may 
not go bankrupt. Right? That's why they're subsidiaries. So, 
the contract itself, do you have in there, safety routine 
inspections from American to Eagle?
    Mr. Bowler. I don't believe that's spelled out in the 
agreement, no.
    Voice. No.
    Senator Begich. OK. That, I think, was Senator Hutchison's 
concern. And so, I'll just kind of put that on the side. I 
would--by the question, I hope that implies what I'm hoping 
that you think about doing, because I think that's part of the 
equation here. Depending always on the FAA is great, but you 
have an obligation--I think you said it very well, Captain--in 
regards to your customer. They're a Delta customer. Doesn't 
matter what they fly. So, the standard that the customer 
expects is the same on any--in any given----
    Do you have a document--again, for all four of you, that 
would show--I'm a very visual person, so I like to see flow 
charts, so forth--but, do you have a chart, that would be able 
to be done, that says, for the majors--and maybe it's to these 
three, here--here's what we require for safety, the procedures, 
the timetables, all those--and then, for your regionals, what 
boxes are checked that correspond to the same ones you do? Do 
you have such a document?
    Captain Dickson. I don't have it with me today, Senator, 
but I can provide it.
    Senator Begich. OK.
    Captain Gunther. We don't have such a document, no, sir.
    Senator Begich. Can you produce such a document?
    Captain Gunther. Well, I----
    Senator Begich. I'm assuming, if Delta can, of course the 
competitor----
    Captain Gunther. Well, we----
    Senator Begich.--can do the same thing.
    Captain Gunther. The answer is, yes, we could produce it.
    Senator Begich. OK, good.
    Mr. Bowler. I'm afraid I'm unclear of the document you're 
looking for, sir.
    Senator Begich. Let me clarify, if I can, Mr. Chairman.
    If you have--and, again, you're kind of in a different--
because you're Eagle, so you have to kind of look to American. 
But, assume American, which I'd put money on it, I'll bet on 
it, that they have a list of--``For our planes to move through 
the air, here is our safety list of things we require--routine 
checks, this--you know, whatever it might be--routine 
inspections, pilot issues, a variety of things.'' They'll 
probably have a shopping list. I want to see that comparable to 
what they require of you, or you of them. In other words, do 
you have the same requirements that they have? What boxes 
aren't checked? What are not consistent in the safety of the 
two types of planes--or, airlines? Do you have such a document?
    Mr. Bowler. It sounds like what you're calling--you're 
requesting is a checklist for operating aircraft at the two 
different airlines. Our checklists are different, as we're at 
a--a separate----
    Senator Begich. Right.
    Mr. Bowler.--certificate. And----
    Senator Begich. I understand that, from a technical 
standpoint, but--so, you do have a difference. What I want to 
see is what those differences are. If the regional--or, if the 
major requires X amount of routine inspections, and the 
regional requires Y, I want to see the difference. That then 
will drive future questions. To be very fair to you.
    Mr. Bowler. I'd be happy to get that for you.
    Mr. Bowler. I think it's a complicated response, because 
the maintenance----
    Senator Begich. Here's what we'll do, Mr.----
    Mr. Bowler.--requirements of each aircraft are different.
    Senator Begich. Here's what we'll do, Mr. Bowler, and then 
I'll turn to the last one. Whatever Mr. Dickson has, we'll use 
that as the baseline, because obviously they've done it.
    Mr. Trenary?
    Mr. Trenary. I think the answer is yes, but not 
contractually required.
    Senator Begich. I understand that part.
    Mr. Trenary.--and by that I mean, if you came and said, 
``OK, we're going to require you to do this,'' I think it would 
be very easy to produce that, because you do have all these 
processes and procedures you'd have to agree to. It would be a 
matter of formalizing it, putting it in a format, whether it is 
Delta's or another carrier.
    Senator Begich. Right.
    Mr. Trenary. So, I'm confident it's there. You have the 
rule, but the rule doesn't say you have to stop there; you can 
go above that rule.
    Senator Begich. Correct.
    Mr. Trenary. I'm confident we're doing what you're 
suggesting. It's a matter of putting it in a format that would 
display what we're talking about.
    Senator Begich. Understood. I'm just trying to see if there 
are----
    Mr. Trenary. I understand.
    Senator Begich.--differences. And then, that will drive 
questions of, you know----
    Mr. Trenary. Right.
    Senator Begich.--why. And you may have some very rational 
reasons, maybe, why, but that helps us understand what the 
standardizations are.
    Thank you, Mr. Chairman, for those questions.
    Senator Dorgan. Senator Begich, thank you very much.
    Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    Let me just go down the row, here, and try to do this very 
quickly. Mr. Trenary, what is the starting salary for a first 
officer in your airline?
    Mr. Trenary. It's in the low 20s. Now, that will go up 
significantly in about the next 60 days. By ``significantly,'' 
approximately 20 percent.
    Senator Johanns. Mr. Bowler?
    Mr. Bowler. Approximately $22,000.
    Captain Gunther. It's approximately $30,000.
    Captain Dickson. And Delta's about the same, about $30,000.
    Senator Johanns. You know, it just strikes me--and I 
appreciate, your pilots are professional; I don't doubt that 
for a second. But, what you're paying them, I think they 
qualify for every government program we'd have. The two at the 
end of the table could probably even put their families on food 
stamps. I just find that remarkable, when they're charged with 
the responsibility of people in their airplanes. I just find it 
remarkable. And I don't know enough about your industry to 
explain why that happened.
    On the regional versus the major, I'm assuming the major 
contracts with you, because the economics are just simply 
better, and they can fly that route cheaper than they could fly 
it themselves. Would that be true, Captain?
    Captain Dickson. Yes, it would, Senator. Generally 
speaking, we are able to increase the breadth of our network 
and serve many smaller communities with our regional partners.
    Senator Johanns. And have you ever done a study of how much 
cheaper you are to do a route from, say, Washington to Omaha, 
or Washington to wherever, versus a major?
    Captain Dickson. Yes, we have. Yes.
    Senator Johanns. What would the percentage be?
    Captain Dickson. Well, it depends on the particular 
mission. You have to look at the network as a whole, because 
one of the functions of our regional carriers is to build 
traffic out of our hubs. If we have a hub, particularly one of 
our smaller, connecting hubs that doesn't have a lot of 
originating traffic or enough critical mass there, then we will 
build traffic into the hub. So, it's very difficult to look at 
each segment----
    Senator Johanns. Just give me----
    Captain Dickson.--on----
    Senator Johanns.--the range. Is it 5 percent to 50 percent?
    Captain Dickson. I would say probably, depending on stage 
length and the airplane you're talking about, maybe 15 or 20 
percent.
    Senator Johanns. Mr. Gunther, would that be true in your 
situation?
    Captain Gunther. That would be outside my expertise, 
Senator. There are a number of variables to consider, but by 
contracting with regional carriers, Continental gains cost 
efficiencies. It would not be economical for Continental to 
serve smaller markets without the benefits of the 
infrastructure, fleet and operating costs enabled by regional 
carriers.
    Senator Johanns. OK.
    Mr. Bowler?
    Mr. Bowler. Depending on the route, it could be a 
dramatically greater difference.
    Senator Johanns. Just give me the range--5 to 50?
    Mr. Bowler. I'd rather--I'd prefer to get back to you with 
a formal----
    [The information referred to follows:]

    Answer. American's decision to allocate mainline or regional 
aircraft to a particular market is based on a number of factors--but 
the primary driver is matching supply of seats offered to a particular 
market's demand. The decision is not one of ``cutting costs", but 
rather of ``maximizing profits.'' The cost difference between the 
regional and the mainline can vary dramatically, depending on the 
route, frequency and type of aircraft, but the revenue generated on 
those flights also varies widely. In some instances, American Eagle 
will have lower absolute costs of operation on a particular route, but 
American is likely to collect far less revenue on that regional flight. 
If demand in that market was strong, it might justify serving the route 
with a mainline jet to capture the additional revenue. All routes are 
regularly evaluated to determine their profitability--and we routinely 
adjust our schedule to ensure we are matching the service we provide to 
the current demand for travel. In some instances, this means 
substituting a mainline jet for regional service, and vice versa.

    Senator Johanns. OK, you'll provide that to the Committee.
    Mr. Trenary?
    Mr. Trenary. I don't have access to the majors' 
information. What I can tell you is that, if you look at any 
carrier, major or regional, one of the issues is you can't 
operate a whole lot of different aircraft types. You've seen 
our industry, over the past several years, major or regional--
--
    Senator Johanns. So, you'd say that--and I have to tell 
you, I almost smile when you say that. Why can't a major 
airline own a small airplane?
    Mr. Trenary. If you look at the maintenance, training, 
inventory, overhead to support each aircraft, and you look at 
your lowest-cost carriers, and they have one thing in common: 
they operate a limited number of aircraft. Each time you add 
another aircraft ToT--and let's set aside--I think folks tend 
to focus on labor costs--set that completely aside. As you add 
additional aircraft types, you add cost--and it's not on a 
linear basis--to support those aircraft--the engineering that 
goes behind it, the inventory that goes behind it. So, while I 
don't have that number, it would be significant, regardless.
    Senator Johanns. But, you're kind of getting to the point 
that I want to make, here. And the point is that the majors 
aren't running these routes, because you just, financially, can 
do it cheaper. You're doing something, and it'd take us a long 
time to figure out what you're doing, but you're cheaper. Now, 
my concern is, from a safety standpoint, is it not only 
``cheaper,'' but ``on the cheap.'' And there's a difference.
    Now, let me ask you another question. If we had a 
bipartisan bill that basically said, from a safety standpoint, 
from a liability of the major carrier, that there would be 
joint and several liability for any negligence that occurs by 
the regional, so that they would both be responsible when it 
comes to safety purposes, would you folks support that?
    Captain Dickson. Senator, that's beyond my purview.
    Senator Johanns. Would you get back to me on that? That's a 
very important question.
    Captain Dickson. Of course.
    Senator Johanns. Mr. Gunther?
    Captain Gunther. Same thing, sir, we'll--Senator--we'll get 
back to you on that.
    Senator Johanns. OK.
    Mr. Bowler. Likewise, Senator.
    [The information referred to follows:]

Dickson
    Answer. Each certificated carrier is responsible for its own 
training and operations, and for ensuring against the risk of any 
injury that may result from a failure in those operations. Safety is 
our number one priority, and we absolutely stand behind the safety of 
the operations of our regional contractors. Making us jointly and 
severally liable for any safety-related incidents that occur in our 
regional carriers' operations will not increase our incentives to keep 
them safe, it will only create confusion and potential disputes among 
our insurers as to who is responsible if an accident occurs. 
Additionally, it would make it more difficult and expensive for 
carriers to insure against aviation risk liability.
Gunther
    Answer. Continental does not support joint and several liability 
for negligence by a regional carrier. The allocation of such liability 
is well established under current law, which should not be disturbed. 
Each carrier is responsible for operating its flights to the 
appropriate standard of safety and is required to uphold its regulatory 
obligations under its operating certificate issued by the FAA. Since 
every carrier's operation is separately managed and overseen with 
unique characteristics and many differences, the mainline airline that 
contracts with a regional carrier should not have the burden of joint 
and several liability for a separate operation.
Bowler
    Answer. The Federal Aviation Administration (FAA) currently has 
ultimate responsibility for oversight of airlines and ensuring they 
operate safely, according to all Federal guidelines. The FAA certifies 
all airlines, approves their manuals and training programs and 
routinely monitors their compliance. This certification and regulatory 
process is already in place to ensure compliance with all safety 
requirements--any issues regarding safety or compliance are best 
handled by the existing process, which focuses on prevention.

    Mr. Bowler. If I could come back to your prior comment 
about the--only flying the routes with the regional because 
it's cheaper. I think, without a smaller aircraft, most of the 
routes that are operated by the regional airlines wouldn't be 
flown at all, because they couldn't be sustained. So, it's not 
a matter of doing them cheaper; it's a matter of the routes not 
existing if there weren't a regional aircraft to fly them. And 
regional entities are, I believe, better operators of regional 
aircraft than mainlines.
    Senator Johanns. But, see, what I want to get to, here, is, 
how do we do this safely? That's the point. And I know you do, 
too. Nobody is coming here today saying, ``Gosh, just let us do 
what we do.'' But, let me finish that line of thought.
    Mr. Trenary, what would you think about a law that 
basically says you can't offload your safety responsibilities, 
that that is so fundamental and so important that there would 
be joint and several liability?
    Mr. Trenary. Well, I can't speak for the majors, but I can 
assure you we do not offload our safety responsibilities. I've 
been asked a question, ``What would you think if we legislated 
that you have to have exactly the same safety requirements, 
exactly the same standards as major carrier?'' and the answer 
is, ``We already do, and, in some cases, we may have to cut 
back a little bit.''
    Senator Johanns. Let me just wrap up with this thought. I'm 
never going to figure out your business model; I must admit, it 
doesn't make any sense to me. It really doesn't. But, it 
probably makes sense to you, and that's the important thing. 
But, the bottom line for me is the safety piece of this. And 
obviously there's a savings, for the major airline, to have you 
doing their routes--or, doing routes, I should say. So, if the 
only way we can figure out safety is to deal with it from a 
liability standpoint, then I guess what I would say to you is, 
I'm open to that possibility. Sounds funny, probably, coming 
from me, on my side of the aisle, but I just don't think that 
we should, in a fundamental area like safety, have any 
difference. You all talk about how all of these things are 
happening, ``We do this, that, and the next thing, with the 
major carrier.'' Well, then I would think both the major and 
the regional would buy into this idea and say, ``Well, great, 
we're doing those things anyway. Why not?''
    So, I'll be very anxious to hear back from your enterprises 
as to what their thoughts about that is.
    Thank you.
    Senator Dorgan. Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman.
    I've been listening to Senator Begich and the Chairman and 
Senator Johanns, and it occurred to me to make a little 
comparison here.
    When I got on American Eagle, in Chicago, Monday, 2 weeks 
ago, to fly to Washington, I got on that plane the same way I 
walk into a McDonald's. The American brand is something that, 
in my mind, is a quality brand. I didn't think twice about 
walking on the airplane, just like McDonald's is a quality 
hamburger--and I don't want to start making other people mad; I 
like them all, hamburgers, and airplanes, too.
    [Laughter.]
    Senator Isakson. Wasn't for airplanes, none of us would 
work. But, there's a difference, at least to me, there's a 
difference in a contractual relationship and a franchise.
    In a franchise, Mr. Bowler, if you were a franchisee of 
American, and your quality of service or safety went down, 
you'd lose your franchise; and McDonald's would still make lots 
of money, and they'd be fine. But, in the hub-and-spoke system 
and the feeder system that all the airlines have today, you 
can't just necessarily fire somebody on the spot, or you lose 
your network, at least that would seem likely--I'm thinking 
this through. So, it seems like you have a contractual 
relationship to serve--in your case, American; in your case, 
Colgan and--who else do you serve? The big carriers?
    Mr. Trenary. Delta.
    Senator Isakson. Delta?
    Mr. Trenary. Continental.
    Senator Isakson. OK. You have a contractual relationship, 
not a franchise relationship. But, you have the benefit of the 
franchise perception, because you've got the brand name on the 
airplane.
    What's the difference between a franchise relationship, 
like I described, and a contractual relationship, like you 
have? If you don't meet contractual standards, what are the 
consequences, say, on safety?
    Mr. Trenary. It was for me?
    Senator Isakson. Yes, sir.
    Mr. Trenary. That's a very good question, Senator. We have 
very clear contractual relationships, and, frankly, the major 
carrier doesn't look at the impact on their network. If you do 
not meet this level of performance, this level of--and the 
overarching is safety. There are a lot of very detailed metrics 
you have to meet. If you go below these thresholds, your 
contract is terminated. The catchall language is that if you 
are deemed unsafe, the relationship ends.
    Captain Gunther. Senator, may I----
    Senator Isakson. Yes. Any of you that want to address this.
    Captain Gunther. Well, I think it's important to 
understand, regardless of the relationship, that, when it comes 
to safety--and I've even had our Chairman and CEO look me in 
the eye and say, ``If you, as the safety manager, have any 
concerns and come to me, we will shut it down.'' And regardless 
of the relationship, I would think, at this table, you would 
hear that, because we really believe that that's the key. Are 
we providing a safe product? If I, for any reason, feel I'm 
not, I will be at the Chairman's door in a second.
    Senator Isakson. So, from what I hear both of you saying--
in your contracts, safety overrides the feeder system that the 
bigger airline depends on. OK.
    Second question. And I know this is a--I'm an old guy. My 
brother-in-law and I are Vietnam-era guys. My brother-in-law 
was a decorated Vietnam fighter pilot and carrier pilot, stayed 
in the Navy 25 years. But, when he got out, I believe in 1987, 
he went and flew for--I think it was Comair, and he stayed with 
us in Atlanta while he was going through training. And I was 
struck by two things. One, the depth of the training he had to 
go through, even being a carrier pilot who'd made 535 landings 
and, as he used to say, and takeoffs, which--he was always 
proud they balanced. But, I was surprised at two things. One 
was the depth of the training, and second was the pay cut he 
took from the Navy, versus starting out with a feeder airline. 
Is that still true today, that you get a lot of military 
pilots? Or are more of them going directly to the major 
airlines? Any of you that want to answer?
    Captain Gunther. I'll start off with: Senator, I don't 
think that you're that old. I am also Vietnam-era, so----
    But, we do not see as many military pilots today as we have 
seen in the past. I would think everyone would agree with you. 
When I was hired, several years ago, I would say the class was 
probably 80- to 90-percent military pilots. I would think that 
percentage today is down in the 20s, 30s, just depending on the 
supply of military pilots. But, it has changed over the last 
few decades.
    Captain Dickson. And, Senator, the same thing at Delta. 
Traditionally, our hiring profile has been in the 90-percentile 
range, up through the 90s, of military-background pilots. Our 
last round of hiring, in 2007 and 2008, it's probably in the 
45-percent range. Because of longer Active-Duty service 
commitments and other issues, the military pool is smaller. 
However, I will say that the pilots that have been coming to 
the majors over that period of time, were every bit as 
qualified. In fact, in some ways, it was an easier transition 
for them, because they had been working in a sophisticated 
glass-cockpit environment. They were working in a part-121 
operation, and they were working with dispatch and flight 
control. That's an unfamiliar environment for military 
aviators. So, in some respects the pilots with the civilian 
regional background have actually been superior, certainly in 
the beginning, to some of our military pilots.
    Senator Isakson. Mr. Bowler, real quick?
    Mr. Bowler. Military pilots represent a relatively small 
percentage of our new-hire recruits.
    Senator Isakson. Mr. Chairman----
    Mr. Trenary. It's dropping here, as well. But, there is one 
very important distinction--and this goes to Chairman Dorgan's 
area--the University of North Dakota has an outstanding flight 
school. These young people who come out of a program like 
University of North Dakota, and go through a bridge program, 
where they have the experience with 121 operations, regional 
jet simulators, the glass-cockpit--when they come to us, it is 
amazing how competent and how capable they are. If you compare 
some people who have, say, 6-, 7-, 800 hours out of an approved 
bridge program, relative to a pilot that may have several 
thousand hours, and there's no comparison. So, the future looks 
very good.
    Senator Isakson. Well, thank you all for being here today.
    Mr. Trenary. Thank you, sir.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Dorgan. Thank you.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman.
    And I appreciate all of you being here, too, and responding 
to these various questions that we have. Obviously, everybody 
here, and all of you, want to make sure that we're taking 
whatever steps we can to make airline travel as safe as is 
humanly possible. And I think we all realize, too, that, in the 
modern world, the relationships between the main carriers and 
the regional carriers is an economic necessity.
    I remember, as a kid, we didn't get to fly very often, but 
when we did, you could go to Pierre, South Dakota, where 
Western Airlines flew 727s. On these big planes you only had, 
like, ten people on them. But, nowadays, for service into any 
of our smaller communities in South Dakota, you do rely heavily 
on regional airlines. And, of course, many of them, as the 
Senator from North Dakota pointed out, when they fly in there, 
it may have the Northwest or now, the Delta logo, or United, or 
whichever. And so, the assumption is that that carrier--it's 
sort of an integrated operation--you may have a relationship 
that is contractual, or shared revenue--but, in any event, that 
everybody is operating, sort of, with the same set of standards 
and quality and everything else at the main--the larger 
airlines, and the regional airlines that contract with them, 
all adhere to the same sorts of standards.
    We've had a couple different hearings on this subject 
already, and I think they've shed some light on things that we 
may be able to do to help you, such as dealing with the whole 
Pilot Records Improvement Act for an airline. There are 
limitations today in obtaining a full understanding of a 
prospective pilot's flight history when making hiring 
decisions. It has been difficult, in the past at least, in 
getting some of the information released, because of privacy 
issues. And I'm just curious in knowing to what extent each of 
your companies has required prospective applicants to sign 
privacy releases pertaining to their flight history.
    Captain Dickson. Senator, that should have been reflected 
in my statement. We do require that, at Delta, and we have for 
several years.
    Senator Thune. All right.
    Captain Gunther. Senator, the same at Continental. We have 
required that for several years.
    Mr. Bowler. We are not now hiring, Senator. We plan to 
implement such a program, going forward, when we do commence 
hiring.
    Senator Thune. OK.
    Mr. Trenary, you just changed yours, I understand----
    Mr. Trenary. We just changed ours, and we would appreciate 
any help you can offer on that, because we're doing the same 
thing now, as far as asking for that.
    The other thing we can use your help on, is having PRIA go 
back farther. Under PRIA, after 5 years, anything negative, 
other than a revocation, is expunged from the record. It really 
doesn't do us much good to go back and look, 8 or 9 years, if 
anything negative is not there. So, if we could see the entire 
pilot history, from beginning up until the time they apply to 
work for us, it would be very helpful.
    Senator Thune. And my understanding is, with respect to the 
pilot in the flight crash in New York, that there were some 
check-ride failures that probably would have come to light, had 
you had that sort of information available to you. That was 
within the 5-year window, I think.
    Mr. Trenary. Let me stress one thing. Captain Renslow was a 
fine man, by all accounts. Had we known what we know now, no, 
he would not have been in that seat. A failure on a check ride 
is not necessarily a reason for someone not to fly; it depends 
on what kind of failure it is. The failures that we were unable 
to see were the basic fundamental airmanship failures that you 
would not want to have.
    Senator Thune. I'm interested, too, in something that was 
raised in--and I'm not sure which of your testimony--but, it 
had to do with this--and I see this quite frequently, too. We 
have a number of pilots, who live in South Dakota, fly out of 
another city, and so, they commute to work, basically, like 
many of us do. And I appreciate the fact that they like to live 
in South Dakota, and maybe not in some larger city somewhere 
else. But, would it make sense for the FAA or the airlines to 
track the commute, to make it easier to see if there has been 
adequate rest for the pilots? I mean, if their experience is 
like ours, sometimes you have flight delays and issues and 
complications getting to your ultimate place of work from where 
you're going to start flying. Should that information be 
available? Would it make sense for the FAA or the airlines to 
track that?
    Captain Gunther. Senator, let me first say that as a pilot 
over the years, I also commuted. And I will say the men and 
women who are professional pilots in this country, who do 
commute, the vast majority do it correctly, and they do show up 
for work ready to go, rested. That would be a very hard thing 
to do--tracking. The difference between someone leaving from 
your state and flying, say, to Minneapolis, if you will, versus 
someone driving 6 hours, how do we track that person who lives 
6 hours from the hub? And how far do we go into their private 
lives on their off time?
    Speaking personally, I'm a professional pilot, I have 
managed it. There are programs out there to help the outliers, 
if you will. The professional standards group, with the 
associations is an outstanding program. That's peer-to-peer. 
Employee or a pilot assistance programs to track those. And if 
you were to ask me, personally, over the years--there has been 
a time--I can recall, many years ago, where we actually, three 
of us, approached one of our pilots and told him, ``You need to 
change your commuting habits.'' He moved to the hub.
    Senator Thune. Go ahead. Anybody else who cares to comment 
on that?
    Captain Dickson. Senator, I would concur. It's very 
difficult to enforce or legislate what happens in someone's 
private life. And it would be very difficult to track.
    We have pilots, who live on the north side of Atlanta, it 
might take them, if there's an accident on the Interstate 3 or 
4 hours to get to work. Is that person more fit to fly than 
someone who commutes in from Jacksonville? And, how are we 
going to track----
    Senator Thune. Right.
    Captain Dickson.--those different situations?
    Senator Thune. I can see where that would be fairly 
complicated, and certainly be an imposition on pilots.
    Well, we would appreciate, I think, any other suggestions 
that you might have. I know the Chairman has included, in the 
FAA bill that we've marked up, some of these changes in PRIA 
that, I think, will make it easier to get information. And so, 
if you have other suggestions that would be useful to this 
committee as we pursue FAA reauthorization this year, we would 
certainly appreciate it.
    Thank you for your testimony.
    Senator Dorgan. Senator Thune, thank you very much.
    Let me ask a follow-up about this issue of fatigue. And I 
understand there's a difference between crew rest, which I 
think is a contractual situation between carriers and their 
employees, and the issue of fatigue. So, I--Captain Dickson, 
frankly, somebody that lives in a suburb of Atlanta and runs 
into a traffic jam, it is different than someone that is going 
to fly from Seattle to New York to reach a duty station. Would 
it be OK if somebody lived in Southern France, for example, and 
commuted to work? I mean, is--the question is, Is there some 
limit, someplace? I guess what most of you have said--as long 
as--if they show up on time, that's fine, and you expect people 
who are professional to have had sufficient rest, and so on.
    But, I do want to call your attention to a piece in the 
Washington Post, actually, that provoked a response, I believe 
by the FAA this week, just yesterday, a crowded hub away from 
home. And it describes something I wasn't aware of. It 
describes several--500 to 1,000 houses in the United States 
that can be found--they're called ``crash pads,'' where 20, 30 
people will show up and use a crash pad to get a few hours 
sleep here and there. And it just seems to me, whether this--I 
mean, those of us in politics understand, sometimes you have to 
double check these things--but, assuming this article is 
correct, that there are these crash pads that exist, and 
assuming that the description of, Mr. Trenary, the co-pilot on 
the tragic flight into Buffalo, had described what she had 
described, that she had a couch with her name on it at the 
airport when she arrived after flying all night, don't you 
think, from the evidence we now see, that there's something 
wrong, here? You fly across the country all night, thinking 
you're going to catch a few winks on a couch, or you've got a 
lot of folks moving back and forth, around, trying to commute 
to work, and, in some cases, being paid relatively small 
amounts of income--$20-, $22-, $25,000--having to find a crash 
pad someplace, where you can get in there and make sure that 
you don't make enough noise to wake other people that are 
trying to catch a few hours sleep.
    Do--I guess--look, here's the question. All four of you are 
very experienced in the aviation business, in the airline 
business. Do any of you think there's a problem in this area? 
Or do you think that we're just reciting things that we're 
reading and hearing, and anecdotal things with respect to the 
one tragic flight, and, you know what, this is not a problem? 
Give me your assessment of this----
    Captain Dickson. Senator, I'd----
    Senator Dorgan.--fatigue.
    Captain Dickson. Senator, with respect to the commuting 
issue, in particular, this is going to be addressed by the 
Aviation Rulemaking Committee, in some form or fashion. We know 
that it's an issue. To what extent it is a systemic problem, I 
think that's probably a subject that's open to discussion.
    Senator Dorgan. Yes, but I'm asking for your opinion, your 
judgment.
    Captain Dickson. Absolutely.
    Senator Dorgan. Do you think it's a problem, or don't you? 
Because it's only come up recently, because----
    Captain Dickson. Right.
    Senator Dorgan.--we've all pushed it, saying, ``We think 
there's an issue here.'' Question is, Do you think there's an 
issue here?
    Captain Dickson. I certainly think that it's very important 
that the carrier has policies that support commuters and 
individual stability. Their family life, their stability, 
bringing kids up through the same school system, all those 
things can create disincentives to moving to where their flying 
career is taking them. So, certainly our ability to be able to 
have flexible policies, as have been described, to support 
commuters and to deal with the extraordinary situations that 
sometimes crop up, without any disciplinary action or penalty 
to the individual, is very important.
    Senator Dorgan. This question is not just about commuters, 
however. I refer----
    Captain Dickson. Right.
    Senator Dorgan.--to commuters. This question is about the 
industry. And I'm asking, Do you think there's an issue here?
    Captain Gunther. There is obviously, just from the 
incident, Senator, you talked about, an issue that needs to be 
looked at. To what depth that issue goes, I personally don't 
believe it's a large number of people who fall into that 
category. Do we need to look at it? Absolutely. Is the ARC 
going to address it? Absolutely. And from my experience within 
my carrier, I don't see a large issue with fatigue or with 
commuters not commuting properly.
    Senator Dorgan. Mr. Bowler?
    Mr. Bowler. I----
    Senator Dorgan. By the way, have you read the crash-pad 
piece that was written?
    Mr. Bowler. Yes sir.
    Senator Dorgan. OK.
    Mr. Bowler. Fatigue is a serious issue. We are confident 
that--I am very confident that our pilots take that--their 
responsibility, to show up for work rested, seriously. I 
believe we have a good program for making sure they have the 
ability to remove themselves without punitive response.
    Having said that, I am very supportive, and I'm very proud, 
of the fact that Eagle's Vice President of Flight is a member 
of the ARC that's reviewing time and duty rest. And we're 
looking forward to the outcome of that rulemaking process. So--
and we will, of course, adopt that as promptly as it comes 
forward.
    In response to ``Should pilots have the flexibility to 
commute?'' I believe that they should, because I think it's 
very difficult to say, ``It's OK in this circumstance, and not 
in this circumstance.''
    I'd also add that we operate at airports all around the 
country, as I mentioned in my comments, in expensive cities, in 
inexpensive remote smaller communities. And we have employees 
in all those communities. We have employees in New York, in 
Chicago and Los Angeles--on the ramp, they're mechanics, 
they're baggage-handlers, they are ticket agents. And most of 
them earn less than the pilot group. And they're able to live 
in those communities. Most of those people don't commute; 
they've found places to live, and they've found a lifestyle to 
sustain themselves.
    So, the commute--I think it's important to distinguish that 
the commuting decision is a lifestyle decision.
    Senator Dorgan. Well, I understand. But, the lifestyle 
decision is made--is required by how much income you're making. 
And if you're making $24,000 a year, you choose, perhaps--in 
the circumstance that we're all well aware of, you choose to 
live with your parents on the West Coast, and then--and I 
guess----
    The only reason I'm asking this question is this. I think 
if, God forbid, there's an accident next year, and it is 
someone related to one of the witnesses that's on the airplane, 
and you discover what we now know about what put--what clearly 
had to have been fatigue in that cockpit, would you think 
there's something wrong that needs to be corrected? And the 
answer would be, I assume, ``yes,'' in that circumstance.
    And then, the next question is, Does that circumstance 
portray something broader as a problem? And then, you read 
these things and begin to understand and talk to people, and 
you say, ``Yes, I think there's something going on.''
    I board airplanes all the time, as I'm sure does Senator 
Thune and Senator Begich. And I know pilots, and I know flight 
attendants, that commute to work. I understand that. I mean, 
you know, you get on a plane in Fargo. There are pilots 
boarding in Fargo to go to Minneapolis or Detroit to begin 
their duty. I understand that. I have never felt alarmed by 
that. But, I do have some alarm about someone flying all across 
the country the entire night and then explaining, to somebody 
that she's flying with, that there's a couch that's--with her 
name on it at a crew rest station, and then reading that there 
are 500 to a 1,000 crash pads someplace.
    It just seems to me that there's something here that we 
ought to be concerned about, because fatigue in a cockpit is 
critical. I mean, you know, there's no room for errors in a 
cockpit. And when you're fatigued, you make mistakes. And so, 
I'm trying to understand whether there's a problem. And I think 
what I'm hearing is, ``You know what? Not much of a problem 
here, but whatever ARC says, we will proceed to implement.''
    And I--so, let me go onto some other things, because I--
obviously, we're driving, I think, through the FAA and other 
processes, some better understanding. I do think it's the case 
that probably none of you fully understand, either, how much 
rest does someone have when they show up for work, because you 
say professionals are expected to meet the standards. And I 
understand that. I understand that. But, I also understand 
there are some requirements to make certain that those 
standards are met, other than just an expectation that they are 
met.
    Let me ask about the network carriers. When you have co-
chairing with foreign airlines, my understanding is that 
network carriers are required, by the Department of 
Transportation, to conduct periodic safety audits of the 
international co-chair partners and submit the results to DOT. 
That--is that a proper understanding, that a network carrier, 
such as Continental or Delta, when you do co-chairing with an 
international carrier, you're required to go do a safety audit 
and then submit your findings to the Department of 
Transportation? Is that accurate?
    Captain Dickson. Senator, in the absence of an IOSA audit, 
that is true. Before the advent of the IOSA system, we had done 
audits on our own. As a matter of fact, the Delta audit system 
actually became the basis for IOSA later on. That is actually 
the audit that we accept, at this point.
    Captain Gunther. And, Senator, that's the same, sir.
    Senator Dorgan. And in--is that IOSA audit present in all 
cases these days? I mean have you--are there circumstances 
where you've had to do the audit and report to the DOT?
    Captain Dickson. Not in recent years, Senator.
    Senator Dorgan. But, in any event, the implication of that 
has been that the requirement is on the network carrier to make 
certain that someone who's flying on the network carrier, and 
then going to a co-chair partner, is going to fly on an 
airplane that--with a crew that you feel represents the same 
safety standards, and is meeting all the standards, that you 
expect for your airline. Is that----
    Captain Dickson. That is correct.
    Senator Dorgan. And does that same requirement exist for 
you with respect to a regional carrier? Now, you employ a 
number of regional carriers, I think, Captain Dickson. How many 
regional carriers do you----
    Captain Dickson. We currently have nine----
    Senator Dorgan. And how many of those do you own, in total? 
I mean, how--I--let me rephrase that.
    How many of the regional carriers do you have a 100-percent 
ownership in?
    Captain Dickson. I believe it's two out of the nine.
    Senator Dorgan. That would be Mesaba and who else?
    Captain Dickson. It would be Comair----
    Senator Dorgan. Is----
    Captain Dickson.--and Compass and Mesaba.
    Senator Dorgan. And--so, three?
    Captain Dickson. Yes.
    Senator Dorgan. And the other six----
    Captain Dickson. Are all contractual relationships.
    Senator Dorgan. OK, yes.
    And so, the question, I guess, again, if you decide that 
you're going to have Mr. Trenary pick up and deliver passengers 
at--as--in part of your spoke system, hub-and-spoke system out 
there, what is your requirement with respect to the safety 
issues of Mr. Trenary or Mr.--Mr. Bowler's in a different 
position, because he's wholly owned by American and only flies 
for American. But, what is your responsibility with respect to 
assuring the safety, as you must with a co-chair international 
carrier--what's your responsibility when you employ Mr. Trenary 
to pick up and drop off passengers?
    Captain Dickson. It's a similar responsibility, Senator. We 
are requiring IOSA audits of all of our regional partners, 
currently. We have not built in this requirement for ASAP and 
FOQA into contractual relationships at this time, but that's 
something that we intend to evolve into, going forward. And 
it's part of our monthly review, when we review all of the 
recent FAA SAFOs and InFOs; and other recent events in the 
industry. We also review the status of their ASAP and FOQA 
programs, as well.
    Senator Dorgan. Alright. I have a couple of other 
questions, but I'm going to call on Senator Begich, if you wish 
to ask----
    Senator Begich. Thank you very much, Mr. Chairman.
    First, I, again, thank you for the last round of answers to 
my questions. I just want to make sure, and make, kind of, a 
declarative statement, that charts that I have asked, I would 
hope that each one of you could submit those to me, and I'll be 
happy to share them with the Committee, or if the Committee 
wants them, too--if you could do that, I'd greatly appreciate 
that. I want to make that very clear.
    The fatigue issue, how do you--let me ask it this way. If a 
pilot comes in and says, ``I just--I can't fly,'' and they use 
fatigue as the issue, what happens? Whoever wants--I don't know 
who to ask this, but whoever would like to ask this--answer. Go 
ahead.
    Captain Gunther. If a pilot declares fatigue, he's taken 
off the--he or she will be taken off the trip. No reprimand.
    Senator Begich. OK. And is that similar to all cases?
    Captain Dickson. Yes.
    Senator Begich. OK. And do you keep track of how many 
pilots identify fatigue as their issue?
    Mr. Trenary. We do, sir.
    Senator Begich. You do?
    Voice. Yes.
    Senator Begich. You do? Do you--Delta?
    Captain Dickson. We have relatively low incidence of this. 
We don't track it per individual, but we do have the data in 
our system.
    Mr. Trenary. The safety department keeps track, yes.
    Senator Begich. OK. Do you--and, I guess, for the ones that 
operate the regional--how do you manage and understand your 
employees, in the sense--and I think your question--or, the 
response that Captain Dickson commented, you know, that you 
don't want to get down so deep--or maybe it was Captain 
Gunther--in their personal lives too deep. But, how do you 
understand--for example, maybe you have a pilot working--and I 
am an issue--with the salary, you should know that. I recognize 
your earlier statement. You know, you've got great pilots--
there's no question about it--that are working at a different 
wage level, and--but, they could also be doing other things, 
too, to make money, meaning other jobs. How do you--you know, 
if you have a pilot that's being a pilot, making whatever your 
salary range is, but know--they know that's not enough to 
maintain their family, they have a second job--how do you put 
that into the equation? Because I will guarantee you, it's one 
reason, as a former mayor, we ensured our payment to--our 
police officers and firefighters were very well paid. We did 
not want them to have a second job, of any kind, because their 
requirements were significant for public safety. So, our job 
was to pay them well, and good benefits. I got a lot of 
criticism for that, for mayor, but we had very low, if almost 
zero, corruption and situations that our officers got in 
trouble. So, how do--for both of you two, how do you deal with 
that? I mean, do you survey your pilots? Do you do focus groups 
with your pilots? What--how do you deal with this?
    Mr. Bowler. I'm afraid I could not tell you what 
percentage, or what numbers, of our pilots have additional 
sources of income. And again, I don't think that we would be 
prone to go ask them that question. I think what they do in 
their private lives, as long as it doesn't interfere with their 
responsibilities to perform when they're at work, and to 
perform to our standards and the FAA's standards required of 
their license, I'm prone not to go enquiring about that. We set 
our compensation levels, based on the peer group that we 
compete against. And, most importantly, it is a negotiated 
process, it's a collective bargaining agreement that we reach 
with the--in the case of our pilots, the Airline Pilots 
Association, who ably represent pilots across the country.
    Senator Begich. Mr. Trenary?
    Mr. Trenary. I think it really goes to professional 
standards, because we don't track what people do in their off 
time. I can tell you that some pilots live on what they're 
paid, some do not; some have kids, mortgages, colleges, things 
like that. I know pilots who work for major carriers making 
well into the six figures who have other jobs, not because they 
need the money, but because they want to. It really gets into a 
lifestyle choice. One of the things that I'd recommend is we 
could take this issue to our professional standards group. They 
do an outstanding job helping with ASAP and our other safety 
programs. We could ask them to look at this and tell us what 
they're seeing.
    Senator Begich. Yes, I would just be interested, because, 
you know, if there's a trend line--you know, I don't know the 
answer to this, that's why I'm, obviously, asking the question. 
But, I know when we managed a police force--you know, I had 500 
police officers, I had 400 paramedics, firefighters--it was 
very important that we--you know, if they were working--in our 
case, we had them working four-10s, the police officers. So, 
you know 10 hours is a long day, and you don't want them to go 
10 hours, and then spin out and do something else afterwards, 
and then come back for another 10-hour shift, because--it 
doesn't matter what they tell you; physically and mentally, 
they--their system is degraded. Period. I don't--they cannot 
argue me out of that, based on all the scientific evidence. So, 
that's--it would be an interesting--if there's a trend line 
going the wrong direction--and maybe--when I say ``wrong 
direction,'' more secondary employment--but, yet maybe there's 
no impact. I don't know the answer. But, I would appreciate 
that.
    Mr. Trenary. We'll get back to you and see what we can come 
up with.
    [The information referred to follows:]

    Answer. I am not aware of any existing source for secondary 
employment trend information for our pilots or the industry. However, I 
have asked our Professional Standards Group to survey our Pilots to 
determine how many hold down second jobs. All Pilots are required to 
attend recurrent training (Captains every 6 months; First Officers once 
annually). We will poll our Pilots during recurrent training regarding 
jobs outside of our airlines and provide the results of our survey to 
the Committee.
    The attached presentation is the one we used to brief various 
Senators and staff on the relationship between Pinnacle and Colgan and, 
more importantly, the Safety programs at both carriers. The most 
important pages in the deck are 10 through 15 which outline our Safety 
programs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Begich. I appreciate----
    Mr. Trenary. We'll look----
    Senator Begich.--that.
    Mr. Trenary.--at that.
    Senator Begich. Thank you very much. That's the limit of my 
question time.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Begich, thank you very much.
    Let me just ask, again, about this issue of IOSA. How many 
regional carriers do we have in the country? Is it around 20 
that are under contract?
    Mr. Bowler. I--we can--it--I would--my guess would be 20 to 
30----
    Senator Dorgan. Alright. And----
    Mr. Bowler.--regional. But, we can get back to you----
    [The information referred to follows:]

    Answer. According to the most recent data from the Regional Airline 
Association, there were 72 U.S. regional airlines in 2007 based on the 
number of carriers reporting U.S. DOT Form 41 traffic. However, in the 
first half of 2008, there were 70 U.S. regional airlines based on the 
number of carriers reporting U.S. DOT Form 41 traffic. To be classified 
as a ``regional'' airline, a carrier typically has annual operating 
revenue of less than $100 million. Furthermore, a ``national'' airline 
has annual operating revenues between $100 million and $1 billion and a 
``major'' airline has annual operating revenues in excess of $1 
billion. By definition, American Eagle is a major airline. Additional 
information may be viewed by visiting the website of the Regional 
Airline Association at http://www.raa.org/index.php?option=com_content
&task=view&id=16&Itemid=30.

    Mr. Bowler.--Senator.
    Senator Dorgan. Does anyone have information of how many 
regional carriers have had the inspection by IOSA that you 
described recently? Or, no--let me phrase it a different way.
    Are all regional carriers, at this point, in a circumstance 
where they have had an IOSA inspection?
    Mr. Trenary. I would put it this way. I don't know the 
answer to that question, but I believe that any regional 
carrier flying for a major mainline carrier in the U.S.--
United, U.S. Airways, Continental, Delta--would have had an 
IOSA inspection. I don't know that, but I would believe that 
would be the case.
    Senator Dorgan. Let me have you submit that for the record.
    [The information referred to follows:]

    Answer. I cannot speak for all regional carriers, but I believe any 
regional carrier flying for a major mainline carrier in the U.S. would 
have had an IOSA inspection. Our mainline carriers, Continental, Delta, 
United and U.S. Airways, all require their regional carriers to 
successfully complete an IOSA inspection.

    Senator Dorgan. My understanding is that that may not be 
the case, that the issue of IOSA----
    Mr. Trenary. We can find out for you.
    Senator Dorgan.--inspections is a more recent phenomenon. 
And inspections of regionals, in any event.
    And the point I was getting at earlier is that the network 
carriers have a requirement with respect to co-chair partners. 
That requirement does not exist with respect to the regional 
carriers, isn't that correct?
    Captain Gunther. Correct.
    Senator Dorgan. And the obvious question is, Why? The co-
chair partners actually don't wear your colors, in most cases; 
they have their own brand, and you move from one carrier to 
another, as a result of a co-chairing arrangement, which is 
very helpful to the traveling public. But, when you have a co-
chair partner, you have a requirement--and I understand you 
accept that requirement as a result of an IOSA inspection--but, 
as opposed to a co-chair, when you have a relationship with a 
commuter carrier, that requirement does not exist. And that's a 
strange disconnect, as far as I'm concerned, because that 
disconnects the responsibility from the network to the 
regional.
    Captain Gunther. Yes, sir. And if I could make the point--
one of the reasons IOSA is so important--we are dealing with 
carriers outside this country, with different regulators. And 
those regulators vary from country to country. And the purpose 
of IOSA was to standardize, throughout the different 
regulators, a standard safety format so that we could be 
assured, no matter what country we were dealing with, that they 
were meeting the standards set up by IATA and the ICAO 
standards.
    We have a standard, in this country, which is set up by the 
FAA--safety standards. And so, as the regionals are doing IOSA, 
and several of our regionals have IOSA audits, that is in line 
with what we have with these alliances--so, an Air France can 
look at a flight, knowing that every one of their passengers 
will be on a carrier that has met that IOSA standard, and that 
helps them, because of the difference in regulators, as we go 
across different countries.
    Mr. Bowler. Senator, I might----
    Senator Dorgan. But, the only thing I would say to that is 
that there's a general feeling, I think, even at the FAA, that 
that's--one standard has drifted since the mid-1990s--the 
articulation by the FAA of one safety standard, one standard. I 
think there's a general feeling, on this panel, I would say, 
that that has drifted some, and that's why there's now new 
attention to trying to make certain we have that which was 
previously described as one standard. So, if it did drift, and 
you don't have one standard, then, it seems to me, the 
requirement would be even more important with respect to 
regional carriers on behalf of the networks.
    Captain Gunther. And I understand that, Senator, and I 
agree with the one standard. We need to have one standard in 
this country.
    Mr. Bowler. Senator----
    Senator Dorgan. Mr. Bowler, did you want to respond?
    Mr. Bowler. Well, I just wanted to comment that, in light 
of the transparency between ourselves and American and the 
other audit and safety-related activities, we have not 
undergone an IOSA audit at Eagle; it is something we're 
considering doing, going forward. We have not done so to this 
point.
    Senator Dorgan. But, I assume that Eagle is different, in 
the sense that there's a requirement on the part of your parent 
company--I mean, your parent company's responsible for what 
happens with you, because they own you. Is that correct? Am I 
wrong about that?
    Mr. Bowler. Well, the executives of American Eagle are 
responsible for managing it, in the eyes of the FAA. Perhaps, 
in--if the--if it's a legal responsibility, as liability of--in 
the event of an accident, to the extent we have common 
ownership, then there's shared responsibility.
    Senator Dorgan. All right.
    Let me just conclude by saying that I have flown, I 
suppose, almost all commercial planes over the many years I've 
served, and--I mean, I can recall ``the good old days.'' Let me 
frame it, as Senator Thune has done, from the Dakota 
experience. I can recall ``the good old days,'' when leaving 
Bismarck, North Dakota, you were almost always going to leave 
on a 737 or a 727, by Western Airlines, Republic--or a DC-9, 
perhaps--Republic Airlines, Northwest Airlines, Frontier 
Airlines--all of them flying larger airplanes. That was ``the 
good old days,'' 30 years ago. And then we had Metroliners, the 
little cigar tubes, silver tubes that people sat in. And then 
1900s, and now RJ-50s, and now, you know, 76-passenger RJs. I 
mean, we've had this morphing of different kinds of equipment. 
And at the same time, we've gone from a hub-and-spoke system 
that's--that was created by--in their own image, and run by the 
major carriers. And I understand; it made a lot of sense. You 
pick people up in a spoke, move them to a hub, regather them in 
another airplane, and fly them from one hub to another. It 
makes a lot of sense. It's the business model that they created 
after deregulation. And--that new model, however, has also now 
changed, from the network carriers picking people up in the 
spoke and delivering them, to hiring other companies to do that 
job--smaller companies, in many cases--and companies in which 
they'll fly smaller, perhaps right-sized, airplanes, in some 
cases, and carriers that will be paying less for their crew and 
their pilots. And therefore, if one-half of the flights that 
take off from airports today are with those kinds of companies, 
regional carriers who are paying less for their crews in the 
cockpit, and flight attendants and so on, it just leads to an 
obvious question, Do we have the same standards if we have 
less-experienced, lower-paid crews than ``the good old days,'' 
when the 737, DC-9, and 727 would be coming in, with only the 
major carrier flying it?
    Now, I understand the business model has changed. But, as 
the business model has changed, and half those flights are now 
not with the network carrier, but with some other kind of 
service, the question, I think, that we ask, and I think the 
FAA has to look at, is, Are there diminished standards? Is 
there equivalent capability? Do we have, as a passenger, a 
right to believe that behind the cockpit door represents the 
same capability, same experience, same professionalism, and so 
on?
    And I'm not, by asking the question, diminishing a lot of 
good people that fly. I see--I mean, I fly on a lot of these 
airplanes. I get off some of them, and I look in the cockpit 
and think, ``Holy cow. I mean, is that person out of college 
yet? Rather young pilot.'' But, I'm the last person that should 
be saying that, because I'm--I was selected by a Governor, at 
age 26, to serve in a constitutional office.
    So, I understand, you can be young and professional, and do 
a great job. I understand all of that. I'm just saying that the 
way this whole system has been created in recent years is the 
creation of a regional system that pays less and flies smaller 
planes--and the significant question I think Senator Begich, I, 
and others ask is, Has the FAA and have standards kept up so 
that a passenger boarding that plane with those markings can 
feel it is boarding the plane with the same kind of experience 
as existed on network carriers' plane? That--I mean, that's 
part of the discussion about all of this that we've had with 
the FAA and with your carriers.
    And I want to end where I began. It's not my intention to 
frighten anybody, it's not my intention to suggest we don't 
have a remarkably safe system. We do. We've--we have, knock on 
wood, had precious few casualties and accidents. But, at least 
those circumstances that have existed that resulted in tragedy, 
I think, raise questions and constantly should require us to be 
alert to what kind of changes are required, given the fact that 
these--that this industry has changed and is creating and 
providing a different kind of service in different areas of the 
country.
    So, if any of you have observations you wish to make to 
that, I'd be happy to hear them, and then we're going to 
adjourn the hearing.
    Anyone wish to comment on that?
    [No response.]
    Senator Dorgan. This is the third in a series of hearings 
we've held. We are working closely with the FAA and 
Administrator Babbitt. We want to work closely with all of you 
to try to continue to think through, to be alert, and to 
understand these issues, and make certain that we always make 
changes that are necessary to assure the American people that, 
when you board an airplane in this country, you have confidence 
that the standards are being met, enforced vigorously, we have 
an FAA that is doing its job, and we have airline carriers that 
are required to be vigilant in doing their job. That's what we 
want the American people to believe and understand.
    So, I want to thank you. I know that people who run 
airlines and are in executive positions with airlines don't 
want to come to the Congress to talk about two things: their 
finances or safety. I understand that. So, I understand you 
didn't exactly line up at the door, asking to be admitted. But, 
we, on the Committee, very much appreciate your willingness to 
continue this discussion. It's very important. And we'll 
continue to have this discussion in the future, with you and 
with the FAA.
    This hearing's adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]


                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                       Captain Stephen M. Dickson

    Question 1. In most code-share agreements between major and 
regional air carriers the major airline is typically given the right to 
inspect the safety of their code-share partners' operations. Does this 
right exist in all of your companies' code-share agreements?
    Answer. Yes.

    Question 1a. Does Continental or Delta exercise this right as a 
matter of standard policy? If so, how often and what was the scope of 
your review during these inspections?
    Answer. Delta's approach to safety oversight of our regional 
partners has many aspects. Certainly, having the ability to inspect and 
work with our regional partners is one key part of our safety program. 
As a matter of course, Delta is able to and does exercise its right to 
inspect our partners. We recognize that audits and inspections 
particularly on such items as safety and quality programs, pilot 
hiring, pilot training, and operations control are an on-going part of 
our responsibilities. We also are able to, and do, carry out full 
audits of operations of our regional partners.

    Question 1b. How are the findings of these inspections communicated 
to the regional airlines?
    Answer. After an audit or inspection, we make sure that our 
regional partners are aware of our findings and we work with the 
regional partner, depending on the finding, to make any necessary 
changes. Any findings from audits are handled under a consistent set of 
processes within our company, whether the audit is internal or 
conducted by a third party. In addition, these are all handled in 
accordance with our FAA approved quality programs.

    Question 1c. Have any changes been implemented at a regional 
airline as a result of the major air carrier's safety inspection?
    Answer. We believe that audits and inspections have enhanced safety 
of operations. Sharing of best practices has resulted in more robust 
safety programs in such areas as training, winter operations, and 
deicing.

    Question 2. Although DOT currently has a rule that requires the 
disclosure of the identity of each company that operates a leg of a 
flight on behalf of a major carrier, confusion remains for many 
passengers regarding which air carrier is actually operating their 
flight. How can we further raise the awareness of consumers when their 
flight is operated by an air carrier other than the one from whom they 
purchased their tickets?
    Answer. As the question indicates, the operator is required by the 
DOT to be identified at the time of purchase. For Delta, specific 
operators are identified to customers when they purchase through our 
reservations phone lines, and the information is displayed for Internet 
users on our website. In addition, the ``operated by'' identification 
is made again on tickets and again on the boarding passes. Finally, for 
Delta and Delta Connection customers boarding regional aircraft, the 
regional partner is displayed on the fuselage of the aircraft just 
outside the boarding door.

    Question 3. Some major airlines have a ``flow back'' provision in 
their contract with pilots which allows an experienced pilot at a major 
airline that becomes furloughed or laid-off the opportunity to fly for 
the major carrier's affiliated regional airline. Does your air carrier 
have flow-back provisions in their contracts with your pilots? What 
your assessment of the utility of ``flow back'' provisions? If you 
believe that they are effective, why aren't they more utilized across 
the industry?
    Answer. We have flow-back provisions with two of our regional 
partners, Mesaba and Compass. Flow-back provisions are usually paired 
with a corresponding flow-up capability. While there are advantages to 
flow-back and flow-up provisions, the differing needs of the carriers 
can make the use of such provisions challenging. The flow-back 
provisions tend to create additional training requirements and 
disruption at the regional carrier, particularly if the mainline 
carrier is in a period of retrenchment and the regional is in a stable 
or growth period.

    Question 4. Do you believe that ``one level of safety'' has been 
achieved for all Part 121 air carriers?
    Answer. Yes. When the one level of safety program was announced a 
number of years ago, it presented challenges, particularly for the Part 
135 operators. Today, the Part 121 regulations provide a single 
standard for both regional and mainline operations. FAA requirements 
are typically the minimum standard with many different methods of 
compliance. Many carriers have implemented programs tailored to their 
operations that exceed the minimum regulatory requirements by a 
significant margin. For example, the implementation of training 
programs under Advanced Qualification Programs (AQPs) often allows 
carriers to conduct pilot training that is more applicable and relevant 
to real-world scenarios and the conditions under which carriers 
operate.

    Question 5. In what ways may a major airline and its regional 
partners work together to improve aviation safety?
    Answer. Delta has established a formal Safety Alliance with all 
nine of its regional partner carriers. This Alliance meets monthly and 
participants include the Directors of Safety for all carriers. During 
these meetings the carriers share performance on common safety metrics 
(accident/incident investigations and solutions to safety issues that 
contributed to these events), work toward implementing enhanced safety 
programs and standards, and discuss common responses to industry safety 
concerns that the FAA has passed along through mechanisms such as SAFOs 
(Safety Alerts for Operators).

    Question 6. Please describe the existing fatigue management 
policies for pilots in place at your air carrier. What can the 
government do to encourage your airlines to give pilots more leeway to 
forgo a shift because of fatigue?
    Answer. Delta has implemented education on managing fatigue into 
our training programs and crew communications for the past 10 years. We 
have also worked closely with fatigue scientists to help us identify 
and mitigate risks in our operations due to potential fatigue issues. 
Additionally, we have collected and analyzed data to verify the 
performance of our pilots in some parts of our international 
operations, and this work is expanding now to other areas of our 
operation. Finally, any pilot who indicates he is fatigued while 
performing company flying is removed from the operation without 
question and without disciplinary action, no questions asked. In 
collaboration with industry, the FAA should adopt a scientifically-
based Fatigue Risk Management (FRMS) model similar to that being 
developed within ICAO. This would eventually allow an operator to be 
much more proactive in managing this risk and would also provide for 
approved fatigue mitigation in areas where elevated risk was 
identified. Current rules are too prescriptive and not flexible enough 
to account for differences in the ways carriers operate.

    Question 7. In the 1990s Atlas Air was having problems attracting 
qualified pilots. As part of their efforts to attract pilots, Atlas Air 
instituted the ``Gateway Travel Program'' which pays a commuting 
pilot's travel and accommodation expenses to ensure that they are 
rested prior to their shifts. Why don't more commercial airlines adopt 
programs like this to prevent fatigue?
    Answer. Atlas, a cargo carrier, has a unique operation as compared 
to most scheduled passenger carriers. For example, Atlas' pilots trips 
typically do not originate at a crew base so their pilots always have 
to commute to get in position to fly. On the rare occasion where one of 
our pilots would start from somewhere other than his base (i.e., to 
cover a mid-rotation sick-out) we would handle this through a deadhead 
from the pilot's base with rest and expenses taken into account The 
flexibility of commuting is one of the factors pilots take into account 
when determining how to bid on positions in the airline. The payment of 
travel and accommodation expenses would also favor one group of pilots 
(commuters) over another (those who choose not to commute). As 
discussed at the hearing, the FAA is working through the issue of pilot 
fatigue. The Aviation Rulemaking Committee on fatigue, in which the 
industry participated, recently submitted its recommendations to the 
FAA. We look forward to continuing to work with the FAA on the science 
of fatigue and adopting best practices and procedures.

    Question 8. Colgan has recently stated that it plans to conduct a 
LOSA Audit on all of its operations. As you may know, the FAA 
recommends not conducting such an audit within a year after an accident 
because the chances of getting normal data will be diminished. Do you 
think that Colgan should conduct a LOSA audit at this time?
    Answer. LOSA has been an extremely valuable tool for Delta over the 
years and provides a perspective that is not available through other 
audit programs. From our perspective a LOSA audit would provide value 
whether or not it was conducted in a post-accident environment.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                          Captain Don Gunther

    Question 1. In most code-share agreements between major and 
regional air carriers the major airline is typically given the right to 
inspect the safety of their code-share partners' operations. Does this 
right exist in all of your companies' code-share agreements?
    Answer. In the event of a safety concern, Continental has the right 
to inspect, review and observe its partners operations of scheduled 
flights.

    Question 1a. Does Continental or Delta exercise this right as a 
matter of standard policy?
    Answer. Continental exercises its right to investigate reasonable 
safety concerns of which it is aware.

    Question 1b. If so, how often and what was the scope of your review 
during these inspections?
    Answer. There is no set schedule Continental follows with regard to 
exercising its right to investigate reasonable safety concerns. 
Continental communicates regularly with carriers with which it 
contracts and follows up on any notice it receives of safety or 
operational concerns. The scope of Continental's investigation would 
depend on the circumstances that prompted the review, but at a minimum, 
Continental obtains and reviews safety audits performed by qualified 
independent entities to learn more about a regional carrier, including 
available IOSA audit reports, DOD surveys, or other network carrier 
audits.

    Question 1c. How are the findings of these inspections communicated 
to the regional airlines?
    Answer. In person and/or by phone with the carrier's senior 
personnel in charge of safety and operations.

    Question 1d. Have any changes been implemented at a regional 
airline as a result of the major air carrier's safety inspection?
    Answer. Continental is unaware of what specific changes regional 
carriers with which it contracts have made based on Continental's 
exercise of its right to investigate reasonable safety concerns, but 
Continental is aware of changes that have been made in some carriers' 
policies and practices as a result of collaboration within the aviation 
community on issues that bear on safety, as well as Continental's 
sharing of its safety-related policies and practices with its code-
share partners.

    Question 2. Although DOT currently has a rule that requires the 
disclosure of the identity of each company that operates a leg of a 
flight on behalf of a major carrier, confusion remains for many 
passengers regarding which air carrier is actually operating their 
flight. How can we further raise the awareness of consumers when their 
flight is operated by an air carrier other than the one from whom they 
purchased their tickets?
    Answer. The DOT requires airlines to disclose the carrier actually 
operating the flights. Continental does so in numerous different ways, 
including on its website, such as on the pages where customers search 
for flights, select flights, book itineraries and on e-ticket receipts. 
Additionally, Continental lists on its website all carriers with which 
it codeshares and/or participates in alliances. Customers who choose to 
make travel plans through telephone reservations or travel agents are 
also advised of the operating carrier at the time of booking.

    Question 3. Some major airlines have a ``flow back'' provision in 
their contract with pilots which allow an experienced pilot at a major 
airline that becomes furloughed or laid-off the opportunity to fly for 
the major carrier's affiliated regional airline. Does your air carrier 
have flow-back provisions in their contracts with your pilots?
    Answer. No.

    Question 3a. What [sic] your assessment of the utility of ``flow 
back'' provisions?
    Answer. They generally are workable for major carriers; however, 
such provisions tend to create strain on regional carriers during 
periods of rapid growth and reduction in pilot ranks at major carriers.

    Question 3b. If you believe that they are effective, why aren't 
they more utilized across the industry?
    Answer. See answer above.

    Question 4. Do you believe that ``one level of safety'' has been 
achieved for all Part 121 air carriers?
    Answer. Continental believes there should be one regulatory 
standard of safety and it should apply to all carriers, but Continental 
does not have the ability to determine whether it has been achieved for 
all Part 121 air carriers. Continental recognizes the leadership and 
oversight role of the FAA in promoting and ensuring airline safety. 
That being said, Continental is committed to working with all members 
of the aviation community to continuously improve the safety of our air 
transportation system.

    Question 5. In what ways may a major airline and its regional 
partners work together to improve aviation safety?
    Answer. FAA sets the safety standards for all airlines, and all 
airlines are each individually responsible for ensuring their own 
compliance. With regard to what airlines can do to help further the 
interests of safety within the FAA regulatory framework, Continental 
supports airlines working together to address recognized safety 
problems through participation in committees or task forces, such as 
the Aviation Safety Information and Analysis Sharing (ASIAS) program 
and the Commercial Aviation Safety Team (CAST), and by participation in 
safety forums and meetings where best practices and other aspects of 
the FAA voluntary safety programs (ASAP, FOQA, LOSA and AQP) are shared 
and discussed.

    Question 6. Please describe the existing fatigue management 
policies for pilots in place at your air carrier.
    Answer. Continental has a very explicit fatigue management policy 
for pilots. When a pilot calls in fatigued, they will be immediately 
removed from the schedule without reprimand.

    Question 6a. What can the government do to encourage your airlines 
to give pilots more leeway to forgo a shift because of fatigue?
    Answer. Currently, the FAA has established the Flight and Duty Time 
ARC to address fatigue issues and outline the process to establish a 
Fatigue Risk Management System (FRMS). The FRMS uses a science-based 
approach to managing fatigue and should have a fatigue policy embedded 
in its processes.

    Question 7. In the 1990s Atlas Air was having problems attracting 
qualified pilots. As part of their efforts to attract pilots, Atlas Air 
instituted the ``Gateway Travel Program'' which pays a commuting 
pilot's travel and accommodation expenses to ensure that they are 
rested prior to their shifts. Why don't more commercial airlines adopt 
programs like this to prevent fatigue?
    Answer. Network carriers have been able to attract and hire 
qualified pilots. Pilots are not restricted to living in a specific 
location and many choose to live away from their place of work. It is 
the responsibility of the crewmember to report for duty adequately 
rested and prepared for a scheduled flight duty period. Anything to the 
contrary will be viewed as a violation of FAR 91.13. An air carrier is 
prohibited from assigning a crew member to a flight duty period if the 
crew member has reported himself as not fit for duty or if the air 
carrier believes that the crew member is not fit for duty. A pilot, who 
says he/she is fatigued, is removed from duty without negative 
consequences.

    Question 8. Colgan has recently stated that it plans to conduct a 
LOSA Audit on all of its operations. As you may know, the FAA 
recommends not conducting such an audit within a year after an accident 
because the chances of getting normal data will be diminished. Do you 
think that Colgan should conduct a LOSA audit at this time?
    Answer. Continental understands that Colgan plans to conduct a Line 
Observation Safety Audit (LOSA) in the 1st Quarter of 2010, which would 
meet the recommended 1 year period following an accident.

                                  <all>

</pre></body></html>
